<html>
<title> - FEDERAL BUREAU OF INVESTIGATION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]









                    FEDERAL BUREAU OF INVESTIGATION

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 11, 2014

                               __________

                           Serial No. 113-77

                               __________

         Printed for the use of the Committee on the Judiciary







[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






      Available via the World Wide Web: http://judiciary.house.gov

                                   ______

                         U.S. GOVERNMENT PRINTING OFFICE 

88-242 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001















                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
HOWARD COBLE, North Carolina         ROBERT C. ``BOBBY'' SCOTT, 
LAMAR SMITH, Texas                       Virginia
STEVE CHABOT, Ohio                   ZOE LOFGREN, California
SPENCER BACHUS, Alabama              SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
J. RANDY FORBES, Virginia            HENRY C. ``HANK'' JOHNSON, Jr.,
STEVE KING, Iowa                       Georgia
TRENT FRANKS, Arizona                PEDRO R. PIERLUISI, Puerto Rico
LOUIE GOHMERT, Texas                 JUDY CHU, California
JIM JORDAN, Ohio                     TED DEUTCH, Florida
TED POE, Texas                       LUIS V. GUTIERREZ, Illinois
JASON CHAFFETZ, Utah                 KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC RICHMOND, Louisiana
TREY GOWDY, South Carolina           SUZAN DelBENE, Washington
RAUL LABRADOR, Idaho                 JOE GARCIA, Florida
BLAKE FARENTHOLD, Texas              HAKEEM JEFFRIES, New York
GEORGE HOLDING, North Carolina       DAVID N. CICILLINE, Rhode Island
DOUG COLLINS, Georgia
RON DeSANTIS, Florida
JASON T. SMITH, Missouri
[Vacant]

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel




















                            C O N T E N T S

                              ----------                              

                             JUNE 11, 2014

                                                                   Page

                           OPENING STATEMENTS

The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary     1
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................     3

                                WITNESS

Honorable James B. Comey, Director, Federal Bureau of 
  Investigation
  Oral Testimony.................................................     6
  Prepared Statement.............................................     9

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Committee on the Judiciary.....................................    61

 
                    FEDERAL BUREAU OF INVESTIGATION

                              ----------                              


                        WEDNESDAY, JUNE 11, 2014

                        House of Representatives

                       Committee on the Judiciary

                            Washington, DC.

    The Committee met, pursuant to call, at 10:09 a.m., in room 
2141, Rayburn House Office Building, the Honorable Bob 
Goodlatte (Chairman of the Committee) presiding.
    Present: Representatives Goodlatte, Coble, Chabot, Bachus, 
Issa, King, Gohmert, Jordan, Poe, Chaffetz, Gowdy, Labrador, 
Holding, DeSantis, Conyers, Nadler, Scott, Lofgren, Jackson 
Lee, Cohen, Johnson, Pierluisi, Chu, Richmond, DelBene, Garcia, 
Jeffries and Cicilline.
    Staff Present: (Majority) Shelley Husband, Chief of Staff & 
General Counsel; Branden Ritchie, Deputy Chief of Staff 
Director & Chief Counsel; Allison Halataei, Parliamentarian & 
General Counsel; Kelsey Deterding, Clerk; Caroline Lynch, 
Counsel; Robert Parmiter, Counsel; Brian Northcutt, Counsel; 
(Majority) Perry Apelbaum, Staff Director & Chief Counsel; 
Danielle Brown, Parliamentarian; and Aaron Hiller, Counsel.
    Mr. Goodlatte. Good morning. The Judiciary Committee will 
come to order. Without objection, the Chair is authorized to 
declare recesses of the Committee at any time. We welcome 
everyone to this morning's oversight hearing of the United 
States Federal Bureau of Investigation. And I will begin by 
recognizing myself for an opening statement.
    Welcome, Director Comey, to your first appearance before 
the House Judiciary Committee since your confirmation as the 
seventh Director of the FBI. We are happy to have you here with 
us today, and I commend your distinguished service to our 
Nation and am confident you will continue to serve honorably at 
the helm of the FBI.
    As we all know, last week marked the 1-year anniversary of 
the first leak of classified material by Edward Snowden, a 
criminal betrayal of his country and arguably the most 
significant leak in U.S. activity. Over the past year, the 
House Judiciary Committee conducted aggressive oversight of the 
NSA bulk collection program and spearheaded House passage of 
the USA FREEDOM Act. This bipartisan legislation reforms 
controversial national security programs and provides expanded 
oversight and transparency of America's intelligence gathering. 
Although the leaks by Edward Snowden may have been the impetus 
for Congressional reforms, the passage of this bipartisan 
legislation in no way condones or excuses his actions. The 
detrimental consequences of what he did may not yet be fully 
realized.
    But I want to thank Director Comey and the men and women of 
the FBI for working closely with the Members of this Committee, 
House Intelligence, and leadership to craft the USA FREEDOM Act 
reforms in such a way as to preserve vital intelligence-
gathering capabilities while simultaneously achieving the goal 
of ending bulk data collection.
    Today we also note another dark day in American history. 
Exactly 1 year and 9 months ago, our diplomatic mission in 
Benghazi, Libya, was attacked by terrorists. Four Americans, 
including our ambassador, were killed. The Obama Administration 
initially attempted to blame the attack on a video critical of 
Islam. We all now know that that was not the case, and that the 
attack was premeditated and carried out by Islamist militants.
    In August 2013, we learned that the Justice Department had 
filed criminal charges against several individuals for their 
alleged involvement in the attacks. However, as of today, no 
one has been apprehended.
    I am interested in hearing more from Director Comey about 
the status of the FBI's investigation. I know you may be 
reticent to comment on what is an ongoing investigation, but 
the American people deserve to know whether we can expect the 
FBI to bring to justice the terrorist killers who murdered four 
of our citizens.
    I am also interested in hearing more about the FBI's 
investigation into the Internal Revenue Service's targeting of 
conservative groups. Last year, your predecessor, Robert 
Mueller, informed the Committee that the FBI was investigating 
this matter and, in fact, was hesitant to answer questions 
because there was an ongoing criminal investigation.
    But, earlier this year, unnamed officials leaked to The 
Wall Street Journal that no criminal charges were expected in 
the IRS matter. And on Super Bowl Sunday, President Obama 
stated that there was ``not even a smidgeon of corruption'' in 
connection with the IRS targeting. But then on April 8th of 
this year, before this Committee, Attorney General Holder 
claimed that the investigation is still ongoing, an 
investigation led by longtime Obama and Democratic National 
Committee donors. On May 21, before the Senate Judiciary 
Committee, you also declined to answer questions about the 
matter, explaining that the investigation is ongoing.
    Frustration is mounting over this scandal, and basic facts 
are unknown or contradicted by this Administration. Is there an 
investigation? Has there been any progress? What is its status? 
Why do the Justice Department and FBI continue to assert that 
an investigation is ongoing despite the President's assertion 
that no crime was committed? Do you disagree with him?
    The facts and circumstances surrounding this investigation 
led the House to approve a resolution calling on the attorney 
general to appoint a special counsel. How can we trust that a 
dispassionate investigation is being carried out when the 
President claims that no corruption occurred? I hope you will 
be able to shed some light on that for us today. The American 
people certainly deserve no less.
    Finally, I wish to discuss General Holder's reestablishment 
of the Domestic Terrorism Executive Committee, or DTEC. DTEC 
was first established by Attorney General Janet Reno in the 
aftermath of the Oklahoma City bombing to disrupt homegrown 
terrorism threats. In reforming the unit, Attorney General 
Holder said, ``Tragic incidents like the Boston Marathon 
bombing and active-shooter situations like Fort Hood provide 
clear examples that we must disrupt lone-wolf-style actors 
aimed to harm our Nation.'' And that the unit was necessary to 
respond to the changing terrorist threat, notably the reduced 
risk posed by Al Qaeda's core leadership.
    While I agree that the disruption of domestic terror 
threats is a worthy goal, I take serious issue with the notion 
that America faces a reduced risk from Al Qaeda. Ironically, 
the incidents cited by General Holder, the Fort Hood shooting 
and Boston bombing, belie the claim that Al Qaeda and other 
foreign terrorist extremism is on the decline.
    The question, then, is, what and whom does the Attorney 
General really intend to target via the DTEC? He appears to 
have answered that question in part by stating that, ``We must 
also concern ourselves with the continued danger we face from 
individuals within our own borders who may be motivated by a 
variety of other causes, including antigovernment animus.''
    Would a group advocating strenuously for smaller government 
and lower taxes be included in the Attorney General's 
definition of a group with antigovernment animus?
    Given that the Administration appears to have used the IRS 
to intimidate its political opponents, the reestablishment of 
the DTEC should cause us all to sit up and take notice.
    Director Comey, I look forward to hearing your answers to 
these and other important topics today as well as on other 
issues of significance to the FBI and the country.
    And at this time it is my pleasure to recognize the Ranking 
Member of the Committee, the gentleman from Michigan, Mr. 
Conyers, for his opening statement.
    Mr. Conyers. Thank you, Chairman Goodlatte. We welcome you, 
Director Comey, for your first appearance before the House 
Judiciary Committee since taking office on September 4th, 2013.
    I have great confidence personally in your commitment to 
fairness and to the rule of law. And in 1996, as assistant 
United States Attorney for the Eastern District of Virginia, 
you were appointed lead prosecutor in the Khobar Towers bombing 
case in Saudi Arabia.
    In 2002, as United States Attorney for Southern District of 
New York, you handled a wide variety of complex, high-profile 
cases while helping the district return to some measure of 
normalcy in the aftermath of the attacks of September 11th.
    In 2004, serving as Deputy Attorney General of the United 
States, you refused to certify the Bush administration's 
lawless dragnet surveillance program. And then confronted 
senior White House personnel at the hospital when the 
Administration sought to gain approval from Mr. Ashcroft 
directly.
    So time and time again, you have demonstrated your basic 
commitment to the rule of law, even in exigent and dramatic 
circumstances.
    So that is why I am pleased you are here and at the helm of 
the FBI on this, the first anniversary of our public discussion 
of the government's domestic surveillance programs.
    Last month, the House passed H.R. 3361, the ``USA FREEDOM 
Act,'' which I had a significant role in bringing forward. This 
legislation designed to end domestic bulk collection across the 
board. It applies to Section 215 of the PATRIOT Act, the FISA 
pen register authorities, and National Security Letter 
statutes.
    I am proud to have voted in favor of the only measure to 
pass the House that rolls back any aspect of government 
surveillance since the passages of the Foreign Intelligence 
Surveillance Act of 1978.
    But bulk collection is only one aspect of the problem with 
government surveillance. Over the past few years, our early 
difficulties with National Security Letters notwithstanding, 
the new FBI has proven a responsible custodian of the new legal 
authorities granted to the Bureau after September 11th.
    For the most part, it uses the tools Congress has provided 
in the manner intended for them to be used. But the FBI is an 
end user of massive amounts of data acquired under FISA and 
other authorities without a warrant or individualized 
suspicion. This raises, of course, serious privacy and civil 
liberty concerns.
    Director Comey, you are a standard bearer in the struggle 
to rein in unlawful surveillance. And I hope that you will 
continue to work with this Committee to help us restore a 
measure of public trust in this area.
    Although we have spent much of the last decade focused on 
counterterrorism, it is critically important that the Bureau 
balance its national security function with its traditional law 
enforcement mission. And in this vein, Mr. Director, I would 
like to discuss with you the scourge of gun violence in this 
country.
    Yesterday's shooting at Reynolds High School in Oregon is 
at least the 74th school shooting since the tragedy in New 
Town, Connecticut in late 2012.
    The FBI maintains the National Instant Background Check 
System, and the Bureau is often called upon to participate in 
the investigation of high profile shootings because I believe 
that a more complete background check system would help stem 
the tide of violence, I look forward to your views in this 
matter.
    And similarly, we face many threats from overseas. The FBI 
plays a fundamental role in confronting extremist violence here 
at home as well.
    The Bureau has called the so-called sovereign citizen 
movement a growing domestic threat. According to the Anti 
Defamation League, between 2009 and 2013, there were 43 violent 
incidents between law enforcement officials and antigovernment 
extremists. Thirty police officers have been shot, 14 have been 
killed. To these numbers, we must now add the two officers shot 
and killed this past Sunday in Las Vegas.
    These are not isolated incidents. Director Comey, Congress 
has empowered the Federal Bureau of Investigation with 
considerable authority, including Federal hate crimes 
legislation, to root out this extremism.
    I would like to hear more about how the Bureau puts these 
laws and resources to use, and would like also to have you 
discuss the topic of overcriminalization. The United States 
represents 5 percent of the world's population, but 
incarcerates more than 25 percent of the world's prisoners. The 
Bureau of Prisons is strained to the breaking point. I would 
like to know why then the FBI often recommends Federal 
prosecutions in cases that are already being prosecuted in the 
State court so that an offender faces trial on the same facts 
in two separate jurisdictions.
    The FBI plays a critical role in protecting our Nation's 
computer networks from cyber criminals. We must do more to 
prevent the infiltration of our cyber systems from economic and 
financial criminals. And I would like to hear about the 
challenges presented by the international aspect of these 
crimes.
    And finally, I applaud Deputy Attorney General Cole's 
recent announcement on the recording of Federal custodial 
interviews and your support of this new policy. This new 
presumption--and I conclude here--that all Federal Bureau of 
Investigation custodial interviews will be recorded. And it 
helps all sides of the case. Prosecutors will finally be able 
to share recorded confessions with the jury and suspects who 
feel they have been treated unfairly will be able to fall back 
on recorded evidence.
    There are few exceptions to the official rule that gives me 
pause, but I want to see this new policy in action. And I look 
forward to learning more about the FBI priorities today.
    I am going to use my communications with you after this 
hearing to fill in any questions that may not be able to be 
covered within the questioning period. I thank you. And I thank 
the Chairman of the Committee and yield back any balance of 
time.
    Mr. Goodlatte. Thank you, Mr. Conyers.
    And, without objection, all other Members' opening 
statements will be made a part of the record.
    We thank our only witness, the Director, for joining us 
today. Director Comey, if you would please rise, we will begin 
by swearing you in.
    [Witness sworn.]
    Mr. Goodlatte. Thank you very much.
    And let the record reflect that Director Comey responded in 
the affirmative.
    On September 4, 2013, James B. Comey was sworn in as the 
seventh Director of the Federal Bureau of Investigation. 
Director Comey began his career in the United States Attorney's 
Office for the Southern District of New York as an assistant 
United States attorney. Later he became an assistant United 
States attorney in the Eastern District of Virginia. Director 
Comey returned to New York City after the 9/11 terror attacks 
and became the U.S. attorney for the Southern District of New 
York. In late 2003, he was appointed to be the Deputy Attorney 
General under U.S. Attorney General John Ashcroft.
    Director Comey is a graduate of the college of William and 
Mary and the University of Chicago Law School.
    Director Comey, we welcome you to your first appearance as 
FBI director before the House Judiciary Committee and look 
forward to your testimony. Your written statement will be 
entered into the record in its entirety, and we ask that you 
summarize your testimony in 5 minutes. And you may begin. Thank 
you, and welcome.

 TESTIMONY OF THE HONORABLE JAMES B. COMEY, DIRECTOR, FEDERAL 
                    BUREAU OF INVESTIGATION

    Mr. Comey. Thank you. Thank you, Mr. Chairman, Mr. Conyers. 
It is good to be back before you after an 8-year break.
    I am here representing and expressing the gratitude of the 
people of the FBI. You have long supported them in a bipartisan 
basis. One of the challenges I discovered when I became 
Director was the impact of the so-called sequestration on my 
troops. Heard about it everywhere I went. And we now have been 
adequately funded, thanks to the support of the people in this 
room, and we are very grateful for it because we have much to 
do.
    We are a national security and law enforcement 
organization. I am going to say a few words about 
counterterrorism, but I actually want to start and say a few 
words about cyber. As Mr. Conyers and yourself, Mr. Chairman, 
have mentioned, cyber touches everything the FBI is responsible 
for. For reasons that make sense, cyber is not a thing, it is a 
vector. We as Americans have connected our entire lives to the 
Internet. It is where our children play, it is where our 
healthcare information is, it is where our finances are, it is 
where our social lives are, our government secrets, our 
infrastructure. Almost everything that matters is connected to 
the Internet. And soon our refrigerators will be and our 
sneakers and the rest of our lives.
    Because of that, it is where the people who would do us 
harm, hurt our kids, steal our identities, steal our 
information, steal our secrets or damage our infrastructure 
come to do those bad things. So it touches everything the FBI 
is responsible for, and in ways that are difficult to imagine.
    I thought of a way to explain it to the American people 
when I was in Indiana recently. And a sheriff was showing me a 
bullet that had been fired from John Dillinger's Thompson 
submachine gun. And it occurred to me that Dillinger and his 
ilk had given birth to the modern FBI in the '20's and '30's 
because they heralded the arrival of a totally new kind of 
crime: The combination of asphalt and the automobile allowed 
criminals to commit crimes with shocking speed all across the 
country. And we needed a national force to respond to that. And 
that was the FBI.
    This cyber vector is that times a million. John Dillinger 
could not do 1,000 robberies in the same day in all 50 states 
from his pajamas in Belarus. That is the challenge we now face 
with cyber. It blows away normal concepts of time and space and 
venue. The criminals, the spies, the terrorists have shrunk the 
world because they can move at the speed of light through the 
Internet. We have to shrink that world as well.
    So I know sitting here only 9 months in that my tenure of 
10 years is going to be dominated by making sure we equip, 
deploy, and train to respond to that threat. That we shrink the 
world the way the bad guys have and respond across 
counterterrorism, criminal, counterintelligence. And we are 
well on the way, thanks to the work of my predecessor to do 
that. I hope you saw some of the good work we have done with 
respect to the Chinese, with respect to botnets and massive 
criminal enterprises over the last couple weeks.
    This stuff is no different than someone kicking in your 
front door and stealing things that matter to you or stealing a 
company's most precious property by kicking in the front door. 
We have got to treat it that way and send a message that we 
will find you and touch you significantly wherever you are in 
the world because we are not going to put up with this just 
because it happened in cyberspace.
    So I thank you for your support and your attention to that 
issue. It is going to dominate what I do over the next 10 
years.
    Briefly, counterterrorism. You, Mr. Chairman, mentioned the 
threat from Al Qaeda. I do see the threat from core Al Qaeda 
diminished, thanks to the good work especially of our men and 
women in uniform in the AfPak region. But at the same time, I 
see the progeny of Al Qaeda, these virulent franchises of Al 
Qaeda thriving in the poorly-governed or ungoverned spaces 
around the Gulf, in north Africa, around the Mediterranean. 
This remains a huge diverse and significant threat to us. 
Through Al Qaeda in the Arabian Peninsula, the Islamic Maghreb, 
this ISIL group that has been much in the news, and many 
others. We wake up every morning worrying about it, and go to 
bed every night worrying about it.
    I am particularly worried about the confluence of that 
virulence among these progeny of Al Qaeda with Syria. Syria has 
become the breeding ground, the training ground for thousands 
of jihadis around the world, including dozens and dozens from 
the United States. All of us who know history can draw a line 
from Afghanistan in the 1980's to 9/11. We are determined not 
to allow a line from today's Syria to be drawn to future 9/11s. 
We are determined to anticipate the Diaspora of terrorist that 
is going to happen at some point out of Syria and respond to it 
aggressively in advance.
    And as you mentioned, Mr. Chairman, we also face a 
challenge from these people we call homegrown violent 
extremists. Some call them lone wolves--I don't like the term; 
it conveys dignity they don't deserve. But these are people who 
are not directed by Al Qaeda but are inspired and trained, 
again through the information available on the Internet to then 
emerge from their basement or their bedroom and do something 
terrible, something we spend a great deal of time worrying 
about.
    And domestic terrorism, Mr. Chairman, I think, as the 
Members of this Committee know, is something the FBI has long 
worked. My domestic terrorism operations unit has been busy for 
the last 20 years. Nothing has changed for us in that regard. 
It is something we spend a lot of time worrying about, and 
apply resources to make sure we anticipate and address.
    As I said, we are a national security organization. 
Counterterrorism is part of that, counterintelligence is a big 
part of that. Something we can't talk about in open session 
because most of that work is done in the shadows. But it is an 
important part of our work done extremely well all around the 
world by my folks.
    And we are also a law enforcement organization. We are out 
there every day trying to lock up violent criminals, people who 
would harm your kids, corrupt public officials, and all manner 
of bad guys that touch our criminal investigative 
responsibilities that remain combined with our national 
security responsibilities in ways that make sense to me.
    And I will close just by saying, as you and Mr. Conyers 
have alluded to, lots of folks are asking good questions these 
days about government power, and that is a great thing. People 
should be skeptical of government power. I am. I think the 
country was founded by people who were very skeptical of 
government power, so they divided it among three branches to 
balance it. I think it is great that people ask questions.
    I think one of my jobs is, to the extent I can, to answer 
those questions. And I hope folks will give me the space and 
time in American public life to listen to the answers. Because 
there is an angel in the details of my work. There is a reason 
why it matters that I be able to get lawful process to search 
and get content of some bad guy who is emailing about a 
terrorist plot or a criminal enterprise. There is a reason I 
need to be able to track with lawful process the location 
through a cell phone of someone who has kidnapped a child or is 
fleeing from justice.
    All those things matter a great deal. Those details matter. 
And I believe those details reflect our government working as 
it should. Hard for me to find that space in time in the 
windstorm I live in right now.
    And last, thank you, again, on behalf of the people of the 
FBI. We don't have a lot of stuff. We don't have aircraft 
carriers, we don't have satellites. I got amazing people. That 
is the magic of the FBI. Thank you for the resources for me to 
be able to hire those folks. It was a thrill for me to see new 
agents at Quantico last week and new intelligence analysts. 
That is the lifeblood of this great institution, and it is what 
makes it a thrill and an honor for me to be the Director.
    So I look forward to your questions.
    Mr. Goodlatte. Thank you, Director.
    [The prepared statement of Mr. Comey follows:]




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               __________
    Mr. Goodlatte. We will now proceed under the 5-minute rule 
with questions. And I will begin by recognizing myself for 5 
minutes.
    As I indicated in my opening statement, we have questions 
about the IRS targeting investigation. So my first question is, 
is there an ongoing investigation into the IRS targeting of 
conservative groups?
    Mr. Comey. Yes, sir. Very active investigation.
    Mr. Goodlatte. Can you explain why there is an 
investigation, given that the President said there was not even 
a smidgeon of corruption?
    Mr. Comey. I mean no disrespect to the President or anybody 
else who has expressed a view about the matter. But I don't 
care about anyone's characterization of it. I care and my 
troops care only about the facts. There is an investigation 
because there was a reasonable basis to believe that crimes may 
have been committed. And, so we are conducting that 
investigation.
    Mr. Goodlatte. So he was simply wrong about that.
    Mr. Comey. I don't know what he meant or in what context he 
said it. And, as I said, I don't mean any disrespect to the 
President of the United States. I have tremendous respect for 
the person and the office. But it doesn't matter to me what 
someone says about it.
    Mr. Goodlatte. Can you give us any indication of the 
conduct of that investigation? Who is heading it up and what we 
might expect in terms of information being made available to 
these groups and to the Congress and the public to assure them 
that this type of activity is being addressed and that someone 
will be held accountable if corruption is, indeed, found to lay 
at any one person's doorstep?
    Mr. Comey. I can only say a little because, as you know, 
Mr. Chairman, by law and policy and long tradition, I can't 
comment on an open investigation. I think for good reason. We 
don't want the bad guys to know where we are going, we don't 
want to smear good people that we might have to investigate. So 
that is true of everything we do, not just this case.
    The matter is in my Washington field office. The 
accountable executive is the head of my Washington field 
office, a terrific executive named Valerie Parlave. But I can 
tell you it is active. It is something I get briefed on on a 
regular basis. But I can't say more about where we are or what 
we have done for the reasons I said.
    Mr. Goodlatte. The Department of Justice Office of 
Inspector General has indicated that in the beginning of 2010, 
the FBI reversed course on a longstanding policy of providing, 
among other things, Office of Inspector General access to grand 
jury information in furtherance of their reviews.
    I am aware that you were asked about this recently before 
the Senate Judiciary Committee, and you pledged to avoid 
stonewalling the OIG and to find out more about this.
    This Committee relies heavily on the work of the office of 
the inspector general in order to fulfill our oversight duties. 
Can you assure us that you will resolve this dispute in an 
expeditious manner and allow the OIG to effectively carry out 
its mission?
    Mr. Comey. I agree with you, Mr. Chairman. I think the 
inspector general is essential. I have a great deal of respect 
for the person who holds that office now, who I have known for 
a long time as a colleague. I have told him, look, the 
inspector general is a pain in the rear, but it is a vital pain 
in the rear. It is kind of like the dentist: It makes me better 
to have the inspector general robust and fully informed.
    This is an issue that is a legal issue as to what we are 
allowed to share with respect to grand jury material and what 
are called Title 3 wiretaps ordered by a Federal judge. I want 
to share fully and completely with him, but I also don't want 
to violate the law.
    So I think where we are now is we have asked the Justice 
Department's Office of Legal Counsel, just tell us what we can 
do. And if it is okay under the law, we will make sure we give 
it to them. And if it is not, we will have to talk about 
whether we should change the law.
    Mr. Goodlatte. In your testimony to the Senate Judiciary 
Committee, you said you would find out more about this. Have 
you found out more about this since that testimony?
    Mr. Comey. Yes, sir. I left that hearing and immediately 
went back and talked to my new general counsel about it. And 
dove into the legal issue a little bit. And found out that 
there was a difference of view as to what the law permitted 
here. And, as you know, at the core of our being at the FBI is 
we want to follow the law. So we are going to ask for the 
guidance from the Justice Department. Tell us what the law is 
and we will follow it. And if it needs to be changed, 
obviously, the Department will approach you.
    Mr. Goodlatte. And is that something that you can share 
with us as well when you receive that determination from the 
Department of Justice?
    Mr. Comey. Yes. Certainly.
    Mr. Goodlatte. We would be very interested in knowing what 
their position is on this and whether any action is necessary 
on our part.
    A number of companies have recently announced that they 
intend to start notifying customers when law enforcement 
requests data through a subpoena unless the request is 
accompanied by a court-ordered gag order and despite the fact 
that this disclosure is expressly prohibited on the face of the 
subpoena.
    Is this a change in practice? And how do you expect it to 
impact your investigations?
    Mr. Comey. This is a trend that I am seeing and worried 
about across not just the FBI, but Federal law enforcement and 
State and local law enforcement. That part of the windstorm 
that we are all in with respect to government authorities is 
leading more and more providers to say, where in the past they 
would have just decided not to tell someone, a potential 
pedophile or a drug dealer, that we had asked with lawful 
process for their records, now they are inclined more and more 
to tell the person. That is a real problem for reasons that are 
obvious and something that we have to grapple with.
    Mr. Goodlatte. And have you seen significant instances of 
prominent companies actually notifying targets of 
investigations like for child abuse, sexual assault, or drug 
trafficking, that this information has been requested by 
subpoena?
    Mr. Comey. Yes. Examples have been reported to me where to 
avoid letting the bad guy know, the process was withdrawn. And 
then the investigators had to figure out some other way to 
track this guy where we don't alert him. As I said, we also 
don't want to smear the innocent by having people----
    Mr. Goodlatte. So the lack of cooperation impeded the 
ability to go after some suspected criminals.
    Mr. Comey. That is what I have been told.
    Mr. Goodlatte. We would be very interested in your 
apprising us of the continued problems that this causes for the 
agency, and ways you think we may be helpful in that regard as 
well.
    Thank you, Mr. Director.
    It is now my privilege to yield to the gentleman from 
Michigan, Mr. Conyers, for his questions for 5 minutes.
    Mr. Conyers. Director Comey, yesterday's shooting in a high 
school in Oregon is the 74th school shooting since the attack 
on Sandy Hook elementary school in 2012.
    Can you tell me what your agency is doing to address gun 
violence and what ways can the Judiciary Committee here be of 
help to you?
    Mr. Comey. Thank you, Mr. Conyers. In a bunch of different 
ways. First, I will mention that my behavioral analysis unit, 
who are the big brains at Quantico, who think about crime every 
day, made famous in the ``Silence of the Lambs'' movie, we have 
a group of people there who are doing nothing but thinking 
about what are the markers of this behavior, these mass 
shootings, mass casualty events? What are the indicators, what 
are the clues? And then pushing that information out to State 
and local law enforcement to help educate folks on what they 
might spot. So they are studying and looking for discriminators 
that we can help people with.
    We are also doing training around the country with State 
and local law enforcement to help them learn to respond to 
these kinds of incidents. One of the key things we have been 
training on is, it is a terrible thing that we have to think 
about this, but to make sure that you always leave a lane open 
to the school so that an ambulance can get through all the 
police cars. Because what normally happens is first responders 
come up, jump out of their cars, and the way is blocked.
    We had a mass stabbing event in Pittsburgh about a month 
ago, and the chief had gotten that training, kept the lane 
open, and kids were saved because kids were able to get out 
right away and go to the hospital. So we are doing a lot of 
that kind of training.
    And then in terms of our work, we do a tremendous amount of 
violent gang work in an effort to try and reduce violence in 
cities like Detroit, Chicago, and many other places.
    Mr. Conyers. Well, we have a problem, it seems to me, with 
the background check requirement. Because there is general 
feeling that it ought to be expanded. Do you have a view that 
you can discuss with us on that this morning?
    Mr. Comey. I don't in general or particular. We run the 
National Instant Background Check System, as you know. One of 
the key elements of that system has been mental health records 
that has been much in the news, especially since Sandy Hook. I 
know it is something that across the country, State governments 
are trying to get better at, figuring out what records they can 
push to us so that when someone is buying a weapon that that is 
checked in a way that produces a result that is useful.
    But beyond that, the policy questions are really for the 
Department of Justice.
    Mr. Conyers. Well, there are a number of people in the 
legislature here that feel that the background check 
requirement should be expanded and be made more exclusive. And 
we are trying desperately to get that examined here in the 
legislature. And we may be calling on you or someone in the FBI 
to give us their considered judgment on which direction to go.
    Now, it is true, we have ended bulk collection in the 
general sense through the USA FREEDOM Act. But I remain 
concerned about large collections. And there are some privacy 
advocates that are concerned about it.
    Under the law as exists today, can you describe how much 
information the FBI could collect within a single Section 215 
order?
    Mr. Comey. I don't know that sitting here I can quantify. 
The legislation that the House passed that you have mentioned 
makes good sense to me and bans the use of 215 or National 
Security Letters or pen registered trap and traces to collect 
in bulk. And so I don't think there is a particular number 
except we couldn't collect an amount of records that was 
untethered to a particular selection term as defined in the 
legislation.
    Mr. Conyers. Now, the Section 702 of FISA is focused on 
non-United States persons outside of the United States. But the 
government does obtain large amounts of information about 
United States persons through this authority. Does the Federal 
Bureau of Investigation use information obtained under Section 
702 in criminal investigations?
    Mr. Goodlatte. The time of the gentleman has expired. But 
Director Comey should answer the question.
    Mr. Comey. Can I use 2 seconds? Because I am new, I want to 
make sure I don't talk about something that is classified. Let 
me just check.
    The answer is we do have contact with information collected 
under 702. I think to talk about the details we would need to 
be in a classified setting.
    Mr. Conyers. All right. Thank you, Mr. Chairman.
    Mr. Goodlatte. Thank you.
    The Chair recognizes the gentleman from North Carolina, Mr. 
Coble, for 5 minutes.
    Mr. Coble. Thank you, Mr. Chairman.
    Mr. Comey, good to have you with us. Mr. Comey, last year, 
I asked your predecessor, Director Mueller, about the Benghazi 
investigation. Of course, the Chairman touched on it in his 
opening statement as well.
    I said to him then, I say to you now, the entire scenario 
continues to stick in my craw. I think it has been done very 
ineptly--I am not suggesting you are guilty of this, but 
someone has not done a good job, in my opinion.
    Let me refer to a Huffington Post article which states that 
on October 18th, 2012, New York Times reporter David 
Kirkpatrick spent 2 leisurely hours with a guy named Abu 
Khattala in a crowded luxury hotel sipping a strawberry frappe 
on the patio was scoffing at the threats coming from American 
and Libyans governments.
    Do you share my frustration, Mr. Director, in that the 
media can gain access to this guy and we can't lay a glove on 
him?
    Mr. Comey. I am not sure I would express it----
    Mr. Coble. Assuming we haven't laid a glove on him is my 
thinking.
    Mr. Comey. I wouldn't express it as frustration because I 
have been in this business a long time and I know that 
sometimes journalists can get access to people that we in law 
enforcement can't. And so frankly it doesn't surprise me.
    Mr. Coble. I recall when Mrs. Clinton appeared before a 
Senate hearing in response to one of the questions by the 
Senators she said, What difference does it make?
    It is my belief, Mr. Comey, that any issue, be it obscure, 
indirect, or directly involved with Benghazi does indeed make 
some difference. Do you concur?
    Mr. Comey. I take the Benghazi matter very, very seriously. 
It is one that I am very close to, briefed on on a regular 
basis, one we are putting a lot of work into and that we have 
made progress on. But, again, the details of which I can't talk 
about for the reasons I mentioned earlier----
    Mr. Coble. I can appreciate that.
    Mr. Comey. But it is something I take very, very seriously.
    Mr. Coble. And I can understand how you cannot go into 
great detail with us. But I am glad to hear you say--I have the 
fear, Mr. Comey, that with the passage of each day we are one 
step further removed from resolving the Benghazi thing. And 
that would not be pleasing at all to any American, I don't 
think.
    Mr. Comey. And to me as well, sir.
    One thing you have got to know about the FBI, we never give 
up. So sometimes things take longer than we would like them to, 
but they never go into an inactive bin.
    Mr. Coble. Well, even though I am expressing some 
criticism, I am very high on the FBI. So put me down as one of 
your cheerleaders.
    Mr. Comey. Thank you, sir.
    Mr. Coble. Let me talk about the Attorney General for a 
minute. He has issued directives in the area of marijuana 
enforcement, including the division on the diversion of assets 
for the investigation and prosecution of persons, businesses, 
and financial institutions in States where marijuana has 
obtained some legal status. I presume that would include 
Colorado and the State of Washington.
    Does this policy affect FBI investigations involving 
violent crime and drug trafficking which oftentimes spills over 
State and international borders?
    Mr. Comey. I don't think so. I am not familiar with the 
policy sitting here, which I think means it doesn't have much 
of an impact. My troops have not mentioned it to me. My answer 
is I don't think so, sir.
    Mr. Coble. I thank you, sir.
    I yield back Mr. Chairman.
    Mr. Goodlatte. Chair thanks the gentleman and recognizes 
the gentleman from New York, Mr. Nadler, for 5 minutes.
    Mr. Nadler. Thank you, Mr. Chairman.
    Director Comey, National Security Letters permit the FBI to 
obtain, among other things, basic telephone records, email 
subscriber information, basically all the stuff you could get 
under Section 215 order under FISA.
    The President's review group on intelligence communication 
technologies was unable to identify a principled reason why 
NSLs should be issued by FBI officials when Section 215 orders 
must be issued by the Foreign Intelligence Surveillance Court 
and recommended that all statutes authorize the use of NSLs 
should be amended to require the use of the same oversight 
minimization, retention, dissemination standards that currently 
govern the use of Section 215 orders.
    Now we have done that in the House version of the USA 
FREEDOM Act. Given the overlap with Section 215, are NSLs 
necessary? And why does instances with the FBI choose to use an 
NSL instead of Section 215.
    Mr. Comey. Thank you, Mr. Nadler. NSLs are essential to the 
basic building blocks of our national security investigation 
work. Just as grand jury subpoenas are the basics building 
blocks in criminal work. They are very different than 215. In 
fact, they can only give us information in very limited 
circumstances that you alluded to. Subscriber information, ISP 
identification, no content.
    Mr. Nadler. Metadata.
    Mr. Comey. Credit records. Some financial records.
    Mr. Nadler. Metadata.
    Mr. Comey. Metadata.
    Mr. Comey. Sure. Right. But not in any kind of bulk 
fashion, as you said.
    So, yes, there are basic building blocks of our 
investigations.
    I had a great discussion with the President's review group 
about this. I think they are well intended but dead wrong. And 
I said that to them respectfully. I don't see there is any 
reason--they asked for a principled reason. I said, why on 
Earth would we make it harder to get a National Security 
Letter, which I need in my most important matters involving 
spies and terrorists, than to get a grand jury subpoena in a 
bank fraud investigation? That doesn't make any sense to me. 
They need to be overseen. They are overseen by tremendous 
layers within the FBI.
    Mr. Nadler. So you think that the--or do you think that the 
restrictions in National Security Letters in pen and trace that 
were included in the USA FREEDOM Act version passed by the 
House to make sure that NSLs could not be used as an end run 
around our Section 215 restrictions, they are okay?
    Mr. Comey. Yes. Makes total sense to me. We didn't use it 
that way anyway.
    Mr. Nadler. Okay. Now in the H.R. 3361, the USA FREEDOM Act 
bill that the House passed, the FBI will be required to base 
its use of--as will the NSA--will be required to base its use 
of section 215 on a ``specific selection term.''
    How does the definition of ``specific selection term'' 
limit the government's ability to obtain information?
    Some critics, for example, have said that under the way it 
is defined in the bill, you could ask for every call detail 
record in a given area code, or in a given ZIP Code. Do you 
regard that as true?
    Mr. Comey. No. I think given the language and the clear 
legislative intent that you all have demonstrated that that 
would not be permitted under that. But a lot of people, 
thoughtful people, have said they would like to have different 
language defining selector term. I am happy to discuss it. What 
I want to do is just make sure we don't accidentally, in 
defining selection term, bar some of the things I think 
everybody would want me to be able to do with a National 
Security Letter.
    Mr. Nadler. Do you think that if the Senate tightened that 
definition, so long as it didn't do what you just said, that 
would be okay?
    Mr. Comey. Yes. So long as it didn't accidentally preclude 
things that I think make total sense. If a terrorist is in a 
hotel and I don't know what room he is in, I need to be able to 
use lawful process to find out who is in every room so we can 
figure out, okay, he is now in 712. I got to be able to do 
that. So I just wouldn't want to accidentally forbid that kind 
of thing. But I have no interest in using to collect in bulk. 
So if there is other language, I am happy to discuss it.
    Mr. Nadler. Can you give us any idea of how many NSLs are 
issued in a given year? And how can we supervise them?
    Mr. Comey. I think the number--it is in the thousands. I 
think it is, like, 17,000 a year. Because of the basic building 
blocks of nearly all of our national security investigations. 
Probably not nearly as many as grand jury subpoenas are issued, 
but thousands of them.
    Mr. Nadler. Thank you. My last question, since I see the 
yellow light is on. On May 30th of this year, the House passed 
an amendment to the Commerce, Justice, State Appropriations 
Bill that would prohibit the use of funds to compel a 
journalist to testify about confidential sources.
    On June 2nd, the Supreme Court declined to hear the appeal 
of James Rosen, a New York Times reporter who could face jail 
time for refusing to name his confidential source.
    Forty-nine States and the District of Columbia offer some 
form of protection to reporters who refuse to testify about 
their sources.
    Can you give us your opinion of a proposed Federal shield 
law? And how do we protect freedom of the press and allow 
sources? I mean, much of our reporting, much of our knowledge 
of what has happened in the last 40 years wouldn't be there 
without confidential sources. And yet this Administration has 
really clamped down on those confidential sources.
    So what do you think about a Federal shield law? And how 
can we assure that despite secrecy requirements we still get 
the information we need?
    Mr. Goodlatte. Time of the gentleman has expired. The 
Director will be permitted to answer the question.
    Mr. Comey. I am an enormous fan of a robust press. And I 
think it is appropriate to try and balance my need to 
investigate the most serious offenses in the United States and 
the need to have a robust press.
    I am not up to speed enough on the shield law, and it is 
really not a view the FBI should offer anyway; that is for the 
Department of Justice. But there has got to be a way to 
accommodate that. There shouldn't be a situation where we can't 
ever investigate the most important cases and touch the media. 
But we have got to protect the news-gathering function. And so 
other than that principle, I really don't have a view on the 
law itself.
    Mr. Nadler. Thank you. I yield back the time that has been 
seized back.
    Mr. Goodlatte. Thank the gentleman.
    And recognize the gentleman from California, Mr. Issa, for 
5 minutes.
    Mr. Issa. Thank you, Mr. Chairman.
    Director, as you know, in the news, there has been a lot of 
coverage of the fact that the FBI had and has had since 2010 a 
database of 1.1 million records or pages of records on 
nonprofit organizations, and that those records were sent based 
on communication that included Lois Lerner and individuals 
working for you. Before we began today, I understand from you 
that you said that you had returned those records?
    Mr. Comey. Yes, sir.
    Mr. Issa. So the FBI no longer has records?
    Mr. Comey. That is correct. I understand we returned them 
sometime within the last few days or a week.
    Mr. Issa. Isn't it true that those records were determined 
to include 6103 taxpayer ID information?
    Mr. Comey. I don't know whether it was determined, but that 
was an issue that I read about and have heard quite a bit 
about.
    Mr. Issa. The Department of Justice sent us information 
asking for us to return the information that we had received 
under subpoena. And said the basis was that it contained 6103 
information. Do you believe that to be true?
    Mr. Comey. I think that is right. Yes, sir.
    Mr. Issa. For the IRS to release 6103 information to your 
organization, you are not authorized to receive it as a 
database to be used. So wouldn't that be a violation of the law 
under 6103?
    Mr. Comey. My recollection from my days, again, as a 
prosecutor, is 6103 something we were very careful about to 
protect private taxpayer information. And there is a number of 
legal hurdles that have to be jumped over, including a judicial 
order to share 6103 information.
    Mr. Issa. So the fact is that under the guise of giving 
information that was publicly available under GuideStar, Lois 
Lerner did, in fact, send a database that included 6103 
information to the FBI in 2010. Isn't that true?
    Mr. Comey. I don't know who sent it.
    Mr. Issa. Department of Justice gave us emails. Have you 
seen the emails that were back and forth? Those emails included 
Lois Lerner as an author.
    Let me go through some quick questions that are important 
to the FBI.
    Did the FBI request this database from the IRS?
    Mr. Comey. No.
    Mr. Issa. Since you have returned it, does that mean that 
the FBI never had a valid reason to have it and you do not have 
a reason to have a database of taxpayer individual information 
on non-profits?
    Mr. Comey. My understanding is, again, this was 4 years 
ago, is that there was a valid basis for them to send public 
information.
    Mr. Issa. If public information is available through the 
GuideStar Web site, why would you need the database?
    Mr. Comey. I don't know, sitting here.
    Mr. Issa. Okay. Would you answer that one for the record? I 
would appreciate it.
    On what basis are internal memos available that would show 
there was a reason to have in searchable format this 
information rather than if it was publicly available? And 
obviously the 6103 was not publicly available. But if it was 
publicly available, why you would need a database, a searchable 
database rather than, in fact, go to the same place the public 
goes?
    Do you know today of any reason that the FBI, on an ongoing 
basis, would need any nonpublic information from taxpayers 
including the information from non-profits or not for profits?
    Mr. Comey. In that particular context, I don't. We use it 
in lots and lots of investigations unrelated to that and get 
court orders to get it.
    Mr. Issa. Of course when you get court orders, then you 
have a reason that is specifically stated in the court order.
    At this time, do you have ongoing investigations that were 
begun in 2009, '10, or '11, that concerned referrals from the 
IRS for non-profits to the FBI?
    Mr. Comey. I don't know of any from '9, '10, that period of 
time. I am not saying there aren't any, I am just not aware of 
any.
    Mr. Issa. At this time, have you, to the best of your 
knowledge, relinquished--or would I have to go to Justice, is 
the obvious question--but have you relinquished, pursuant to 
the subpoena, all emails and documents related to Lois Lerner 
and transfers from the IRS, which was the subject of our 
subpoena?
    Mr. Comey. I don't know the status of it. Subpoena to the 
FBI you are asking about?
    I don't know the status of it. I am sure if we complied, we 
did our absolute best to be fully compliant.
    Mr. Issa. Do you agree that--and you mentioned the robust 
oversight of not Congress, but, in fact, of the press--do you 
believe that the American people should inherently be 
suspicious or concerned when taxpayer-identifiable information 
is transferred from the IRS to the FBI without a warrant?
    Mr. Comey. American people should always want to know that 
their taxpayer information, that private information is being 
protected according to the law. That is why as a prosecutor, I 
remember taking it so very seriously.
    Mr. Issa. To your knowledge, what did the FBI do with this 
database in the last more than 3 years that it had it in its 
possession?
    Mr. Comey. I have asked. My understanding is an analyst in 
our criminal investigation division looked at an index of it to 
see what it was. And then parked it to see if DOJ was going to 
ask us to do anything with it, and they never did. So it sat in 
her--I don't know whether her desk or her file for the last 4 
years.
    Mr. Issa. So in closing, Mr. Chairman, then would it be 
safe to assume that if the FBI did not ask for it, had no 
purpose for it, and Lois Lerner and the IRS encouraged the FBI 
to take it, that it was part of a coordinated effort to try to 
produce an investigation that never materialized?
    Mr. Comey. I don't know enough to answer that.
    Mr. Goodlatte. Time of the gentleman has expired.
    Mr. Issa. I thank you, Mr. Chairman.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Virginia, Mr. Scott, for 5 minutes.
    Mr. Scott. Thank you, Mr. Chairman.
    And welcome from Richmond.
    When employers try to get background information for 
prospective employees, we have heard complaints that the 
information is incomplete, people lose the opportunity for jobs 
because the information is not complete.
    What is the FBI doing to upgrade the information?
    Mr. Comey. This is information in our database.
    Mr. Scott. Some of it is in your database, some of it the 
States. A lot of times the disposition of a case is not 
included. So it looks like it may have been a conviction, but 
you don't know.
    If you can get back to me----
    Mr. Comey. I don't know enough to answer right here.
    Mr. Scott. Okay. Sex trafficking. If a 40-year-old has sex 
with a 14 year old, that is rape. Is the crime diminished 
because it is paid for?
    Mr. Comey. Is it diminished because it is paid for?
    Mr. Scott. Right.
    Mr. Comey. The child is still violated.
    Mr. Scott. Is the FBI now recognizing such encounters as 
rape and investigating and bringing prosecutions for cases as 
rape?
    Mr. Comey. I think so.
    Mr. Scott. Does the FBI have a process for dealing with the 
child victims?
    Mr. Comey. Yes, sir.
    Mr. Scott. And what is that process?
    Mr. Comey. Our office of victims of crime spends a great 
deal of time working with our sex trafficking investigations to 
make sure that the kids are treated like the victims that they 
are and they are their gateway into services provided by 
whatever the locality is in which we rescue the child.
    Mr. Scott. Thank you. There is a term called ``organized 
retail theft,'' where gangs go up and down the interstate, drop 
in at a retail outlet, clean out a couple of shelves, and run.
    What is the FBI doing to address organized retail theft?
    Mr. Comey. I don't know enough to answer, Mr. Scott; it is 
not something I am familiar with.
    Mr. Scott. Individual ID theft is--we have these breaches 
of data that are actually valuable because usually, if you only 
steal about a couple thousand dollars from each account, nobody 
investigates it.
    What is the FBI doing to deal with ID theft where they grab 
a credit card, your name, milk it for a couple thousand 
dollars, and keep going?
    Mr. Comey. Probably, it is not a focus of a lot of our work 
unless it is connected to an organized criminal group. We try 
to triage our resources and spend most of the resources on the 
more complicated intrusions. And then offer training. That is 
another big gap that we as a country have to address, offer 
training to the State and local law enforcement so they can 
respond to crimes that involve digital evidence or the 
Internet.
    Mr. Scott. A lot of the ID theft crosses State lines, 
certainly jurisdictional lines, so the local police would be 
virtually incapable of dealing with it. Are you making sure 
that there is a national investigation when you have these 
breaches and people use the credit card information?
    Mr. Comey. Well, we certainly are with respect to the 
large-scale intrusions and the massive identity thefts that 
have been in the news a lot. With respect to the smaller, 
individual cases, if we don't connect it to a more 
sophisticated ring, we try to hand it to our State and local 
partners and give them the training and the expertise they need 
to be able to work it.
    Mr. Scott. The gentleman from California and a couple of 
others have asked about the targeting of conservative groups by 
the Internal Revenue Service. I am aware from lawyers that some 
liberal groups have also been allegedly targeted. Are you 
investigating those, too?
    Mr. Comey. I want to be careful what I say about the 
investigation we are doing with respect to the IRS.
    Mr. Scott. Well, let me just make that, just use that as a 
statement and not a question.
    Mr. Comey. Okay.
    Mr. Scott. Medicaid and Medicare fraud, what is the FBI 
doing to reduce Medicaid and Medicare fraud?
    Mr. Comey. Unfortunately, it is a big part of our work 
across the country, especially in pockets where we have a 
significant amount of Medicaid fraud, Medicare fraud. I was 
just in Tampa visiting my troops. They do a lot of that work 
there. So it is a major focus of our criminal investigative 
work around the country.
    Mr. Scott. Thank you.
    And finally, there are challenges in dealing with--you 
don't like the term ``lone wolf,'' but how do you prevent 
crimes from happening before they happen if there is only one 
person involved?
    Mr. Comey. Very difficult. And there again the very bright 
people in my behavioral analysis unit are trying to push out to 
local police departments markers, because as we look back at 
the history of these cases, you can almost always find 
something that somebody saw. Either they saw in person, or they 
saw on the Internet, in social media some marker that this 
person was radicalizing. So we try to alert our partners so 
they can focus on that, and we try and maintain a robust 
presence in the online world where some of these people will go 
to try and get the training that they are looking for to do 
these terrible things.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Goodlatte. Thank the gentleman.
    The Chair recognizes the gentleman from Iowa Mr. King for 5 
minutes.
    Mr. King. Thank you, Mr. Chairman.
    Director Comey, I thank you for your testimony. I would 
recommend that your staff clip that 5 or 6 minutes of your 
opening statement out and put that up on the Internet and 
perhaps use it as a training for other members that might come 
before the Judiciary Committee. That was an excellent opening 
statement.
    Mr. Comey. Well, thank you, sir.
    Mr. King. And I recall your testimony----
    Mr. Comey. I married a woman from Iowa. That made all the 
difference.
    Mr. King. It made a difference to me as well then.
    I recall your testimony from back in 2005, and it is 
received in a positive fashion, too, and I would just reiterate 
some of this that I have lifted out, and it is June 8, 2005. 
You say you want to catch a terrorist with his hands on the 
check instead of his hands on the bomb, you want to be as many 
steps ahead of the devastating event as possible through 
preventative and disruptive measures, using investigative tools 
to learn as much as we can as quickly as we can, and then 
incapacitating the target at the right moment, and then these 
salient words: Tools such as enhanced information-sharing 
mechanisms and surveillance, pen registers, requests for the 
production of business records, and delayed-notification search 
warrants allow us to do just that.
    I take it that you stand on that statement today from what 
I have heard----
    Mr. Comey. Yes, sir.
    Mr. King [continuing]. And from the actions that you have 
followed through on in that period of time. I am thinking about 
the USA FREEDOM Act, and I would ask you, could you describe 
whether you believe that it makes us safer, and, if so, how?
    Mr. Comey. Well, as a country, in a way--well, let me stay 
with your question. It doesn't make us safer, but I don't 
believe it makes us any less safe, and there are corresponding 
benefits to it, offering some assurance to people who have 
legitimate questions about their privacy, so I think it leaves 
us no less safe than we were.
    Mr. King. And do you have more confidence in the private 
sector holding metadata as opposed to the government?
    Mr. Comey. I don't have more confidence in them if they are 
holding it in bulk, but the phone companies are pretty good at 
holding their records because they want to hit us all for 
bills, so they are pretty good at keeping that record, so I 
have confidence they will keep those in the way they always 
have.
    Mr. King. What would be the most dated metadata that you 
know of that was used to help resolve a crime or prevent one?
    Mr. Comey. That is a good question. I don't know in 
particular. Under the original 215 program, data was kept for 5 
years, and so the experts who know more than I said it was 
useful to have that. The critical period was within 18 months.
    Mr. King. So we can't quite pinpoint whether that 
additional 3\1/2\ years was valuable or not?
    Mr. Comey. I can't, sitting here.
    Mr. King. The 18-month period of time, let me go back to 
this, would you see merit to being able to negotiate with the 
private sector to go into that data beyond 18 months? Can you 
foresee that?
    Mr. Comey. It could happen. There could be cases where it 
is useful, where you discovered something that is older and you 
need to go check it.
    Mr. King. But the FREEDOM Act, USA FREEDOM Act, forecloses 
that opportunity?
    Mr. Comey. Right. For the purposes of that particular 
metadata program, yes, it does.
    Mr. King. And so it is possible that there is data beyond 
the 18 months that could be critical to an investigation, and 
it would be about things that were considered by the people you 
referred to as experts who asked for 5 years of data?
    Mr. Comey. It is possible, yeah.
    Mr. King. Which most everything is.
    The southern border, persons of interest from nations of 
interest. What can you tell us about how that situation might 
have changed over the last 4 or 5 years? Are we getting more or 
less, and from what countries should we be most concerned 
about?
    Mr. Comey. I don't know enough 9 months in to give you an 
assessment of the numbers. It is a big focus of ours, but I 
would have to get back to you on the particulars of it.
    Mr. King. Would you have a sense that those numbers are 
increasing or decreasing?
    Mr. Comey. I have a sense that it is increasing. It is a 
particular worry for me with respect to Syria because I can no-
fly a bad guy to try and keep him from going to Syria, but he 
may look to cross into Mexico to get out and then come back the 
same way across the land border. That is just one of the ways 
in which I worry about it.
    Mr. King. And do you have a number on what percentage of 
illegal drugs that are consumed in America come from or through 
Mexico?
    Mr. Comey. I don't. It is very high, north of 80 percent I 
would estimate sitting here.
    Mr. King. And when the DEA says 80 to 90 percent, that 
would seem consistent with your response?
    Mr. Comey. Sounds about right.
    Mr. King. And do you have any data that you could share 
with us that might indicate the violence in, let's say, south 
of the United States, from there on down into Central America, 
the violence rates within those societies and how that might 
affect our society as we see the masses of people coming in 
here?
    Mr. Comey. I don't, other than I have a sense even after 9 
months that it is a significant issue, especially in some of 
the countries in Central America.
    Mr. King. And Americans will become victims.
    I thank you for your testimony.
    Thank you, Mr. Chairman. I yield back the balance of my 
time.
    Mr. Goodlatte. The Chair thanks the gentleman.
    Recognize the gentlewoman from California Ms. Lofgren for 5 
minutes.
    Ms. Lofgren. Thank you, Mr. Chairman, and thank you, 
Director Comey. I am heartened by your statement, and I 
appreciate your service to our country and your commitment to 
the rule of law. It is great to hear you.
    I think, you know, we are in an interesting time where 
obviously we want to pursue people who would do us harm, people 
who would violate the law. At the same time in a digital age, 
our expectations of privacy are shifting, and getting it right 
in terms of legislation is not an easy task. So I have some 
questions for you about databases.
    It is my understanding, but this is a question, not a 
statement, that the FBI's Next Generation Identification 
database is going to include pictures for facial recognition; 
is that correct?
    Mr. Comey. Yes, mug shots. We are trying, piloting the use 
of mug shots along with our fingerprint database to see if we 
can find bad guys by matching pictures with mug shots.
    Ms. Lofgren. Now, I further understand, but, again, this is 
a question not a statement, that in addition to mug shots, 
there would be civilian pictures as well in this database; is 
that correct?
    Mr. Comey. That is not my understanding. As I understand 
it, what we are using is mug shots, arrest photos, another word 
for mug shots.
    Ms. Lofgren. So there would not be pictures included from 
State DMVs in the database?
    Mr. Comey. I don't think so. The NextGen identification, as 
I understand it, is about mug shots. I think there is some 
circumstances in which when States send us records, they will 
send us pictures of people who are getting special driving 
licenses to transport children or explosive materials or 
something, but as I understand it, those are not part of the 
searchable Next Generation Identification database, and if I am 
wrong about that, someone will whisper to me, or I will fix it 
later.
    Ms. Lofgren. If that is not correct, please do let me know.
    Mr. Comey. Okay.
    Ms. Lofgren. And do we have an idea of what kind of false 
positive we would have in terms of matches using this photo-
recognition technology software?
    Mr. Comey. We don't yet. That is why we are piloting it, to 
see how good is it and is it useful to law enforcement across 
the country, but I don't know the answer to that.
    Ms. Lofgren. Now, it has been reported, and again I don't 
know if this is accurate, that the database when fully--I mean, 
obviously there is a pilot, but there is a plan if it works to 
fully expand it--that there would be approximately 52 million 
faces by the year 2015 in the database. Do you know whether 
that figure is accurate?
    Mr. Comey. I don't.
    Ms. Lofgren. Could you check and find out?
    Mr. Comey. Sure.
    Ms. Lofgren. Because what has been reported, and again this 
is contrary to what your reporting was, that there would be 
several million pictures that would not be mug shots, that 
would be coming from civilian sources, which is something that 
I am greatly interested in.
    Mr. Comey. And I saw some of the same media, and that is 
what led me to ask my folks, so what is the deal with this? And 
the explanation to me was that the pilot is mug shots because 
those are repeatable, that we can count on the quality of them, 
and they are tied to criminal conduct clearly. And so there was 
not a plan, and there isn't at present, where we are going to 
add other non-mug shot photos.
    Ms. Lofgren. Okay.
    Mr. Comey. Again, if I have got that wrong, I will fix it 
with you.
    Ms. Lofgren. I appreciate that.
    It is my understanding that the contractor who is building 
this Next Generation Identification database is a company 
called MorphoTrust, also built the State Department facial 
recognition database which contains 244 million faces. Will 
your Next Generation Identification system be capable of 
importing the State Department records or searching the State 
Department records; do you know?
    Mr. Comey. I don't know. I have not heard of that as either 
a current capability or an intended capability. I will get back 
to you on that.
    Ms. Lofgren. I would appreciate that very much. The reason 
why yesterday we had a vote on the appropriations bill that 
passed to prohibit the collection of and retention of drivers' 
license plates on cars, and it is not--that is in plain sight, 
but I think one of the issues that we need to get right, and we 
would welcome your input on this, is that things that are in 
plain sight that we know are not private take on a different 
quality when they become part of a massive database that can be 
searched. And so if you walk outside your front door, you are 
in plain sight, you know your neighbor can see you, but you 
don't really expect that that would be photographed and be part 
of a massive database so that the government could know where 
you are at any given time. And so the pictures, the identifiers 
on vehicles, useful to law enforcement, but where do we draw 
that line of privacy for the American people?
    So I would be very interested in your thoughts on that. 
Obviously we are out of time now, but if you could provide your 
best judgment on where that line should be drawn, I would be 
greatly appreciative.
    Mr. Comey. Thank you.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Texas Mr. Gohmert for 5 minutes.
    Mr. Gohmert. Thank you, Mr. Chairman, and thank you, 
Director, for being here. We appreciate you taking on the job 
you have taken on, which includes such unpleasant tasks as 
having to come talk to us. But thank you for being here.
    You had mentioned in your opening statement about Syria 
being a breeding ground for terrorism. I had met with some 
Libyans who had originally been rebels in the so-called Arab 
Spring and they were telling me that there are terrorist camps 
springing up all over eastern Libya, that that is an area that 
came through to me in Egypt. Are you aware of any terrorist 
training camps springing up in Libya these days?
    Mr. Comey. It is not something I know a lot about, and it 
is probably not something I want to talk about in open session, 
even the little I do know.
    Mr. Gohmert. Well, since you had mentioned Syria, I wanted 
to see if you knew anything about Libya, because these are 
people that they said before the radicals took so much in 
charge of their rebel efforts, that they were quite active.
    But, anyway, we know that on the border, particularly 
Texas, with Mexico, there is this mass influx of particularly 
children. And I keep hearing from people that have been there, 
that have been working with them, articles that are being 
published, the information is pretty basic, even though a 
spokesman for the Administration says they don't know why there 
is this huge influx, they keep saying that they are hearing 
that amnesty is coming, they will not be sent home, and 
apparently, as I am hearing from border patrolmen, they are not 
being allowed to do their job and secure our border.
    I got a report from some Border Patrol that from October 
2008 to April of 2014, Texas identified a total of 177,588 
unique criminal alien defendants booked into Texas county 
jails, and that those 177,000 have been identified through the 
Secure Communities Initiative with 611,234 individual criminal 
charges. And so I am wondering, even though apparently, what I 
am hearing from the Border Patrol, they are not being allowed 
to do their job and to protect America's borders, is the FBI 
stepping in and picking up the slack and at least of the tens 
of thousands that are pouring in being able to check to see 
their criminal backgrounds?
    Mr. Comey. It is something I have read about in the media. 
Given our responsibilities and authorities, it is not something 
that I have focused on or that I believe we are focused on 
significantly. But lots of other agencies that I think are, but 
not the FBI.
    Mr. Gohmert. Well, Department of Homeland Security is 
supposed to be, but they are not letting the border patrolmen 
do their job. They are being told with the massive numbers, 
don't turn them away, let them come in. This is what I am 
hearing from Border Patrol, let them come in, and then, of 
course, it is in the media, they are being shipped around the 
country to be cared for.
    But I would suggest, Director, since you are in charge of 
the Federal Bureau of Investigation, and we know that this 
massive hundreds of thousands of crimes have been committed by 
people coming in illegally just in Texas, that it is something 
the FBI has got to pick up the slack on. If the border is not 
going to be protected by Homeland Security, then it is going to 
fall directly on DOJ, and I know it may not be wanted, but it 
is happening.
    Let me ask you, shifting gears, your predecessor was not 
aware that the mosque in Cambridge, Boston area, the Islamic 
Society of Boston founded, signed the papers, by a guy named 
Al-Almoudi, that the FBI did a great job proving up a case 
where he is now doing 23 years for supporting terrorism. 
Looking back on the Tsarnaev heads-up that Russia gave us, what 
questions do you think would be appropriate to ask in the 
mosque that FBI just never did? They went there, according to 
Director Mueller, in their outreach program, but not to 
question about whether or not Tsarnaev had been radicalized. 
What questions do you think would be appropriate in a mosque, 
if you think they are appropriate, when you get notice of 
somebody being radicalized?
    Mr. Comey. Well, the particular is one I don't know well 
enough to answer, but in general we want to be able to ask 
whatever questions are logical leads for us to follow no matter 
where it is. Whether it is a mosque or a church or a grocery 
store, if we have a reason to ask a question, we want to be 
able to ask it.
    Mr. Gohmert. Well, that mosque has ties to radicalism, and 
it hasn't been followed up, I can tell you, by the FBI, and I 
would urge you to do that. It is a radical hotbed.
    And I appreciate your time here today, Director. Yield 
back.
    Mr. Goodlatte. The time of the gentleman has expired.
    The Chair recognizes the gentleman from Georgia Mr. Johnson 
for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman.
    Sir, thank you for your service to the Nation. We are 
living during a time where we encounter threats to our national 
security on a daily basis, and we are fortunate to have 
agencies like the FBI protecting us. Recently, however, the 
question has come up as to whether the relationship between the 
government's interest in prosecuting the unauthorized 
disclosure of classified information and the public's interest 
in a free press, and that has been knocked off balance. Has the 
FBI ever used journalists as a cover for their agents, and, if 
so, can we get a commitment that that won't happen again?
    Mr. Comey. Yeah, not to my knowledge.
    Mr. Johnson. Thank you. Journalists continue to find 
themselves in the crosshairs of programs ostensibly designed to 
catch terrorists. What measures has the FBI taken to ensure 
that journalists are not targeted and that they remain free to 
do their work without fear?
    Mr. Comey. Well, we have an extensive set of rules that 
govern how we interact with the media during any investigation, 
whether it is national security or criminal, that are contained 
within our investigation and operations guide, and then we have 
a set above that of Department of Justice regulations that the 
Attorney General has promulgated, and so we follow that very, 
very carefully.
    Mr. Johnson. Thank you.
    Since the Attorney General released revised guidelines 
regarding the gathering of information from journalists, has 
the FBI been involved in surveillance of journalists, and does 
it coordinate with NSA on these issues?
    Mr. Comey. To my knowledge, no, we have not been involved 
in surveillance of journalists, and the same with respect to 
the NSA.
    Mr. Johnson. All righty.
    On another note, in many reverse stings, FBI agents, using 
confidential informants, decide on the amount of drugs, 
including ones that trigger harsh mandatory minimum penalties. 
Research demonstrates that these triggering amounts impact 
minorities disproportionately. Given the possibility of that 
bias, unconscious or not, whether or not it plays a role in the 
decisions of what to charge a target with, isn't it prudent to 
instruct your agents in terms of this issue how to avoid the 
consequences of any bias in that regard?
    Mr. Comey. Well, bias is something I think we have to worry 
about in all human affairs, and especially when you have the 
law enforcement power that we exercise, so it is something we 
talk a lot about inside the FBI to make sure that our culture 
is one rooted to every possible extent throughout the 
organization in being blind to color, to orientation, to 
origin, and following the facts.
    The charging decisions in drug cases that you mentioned 
aren't made by the FBI, those are made by Federal prosecutors, 
so that is not something the FBI agent is going to drive.
    Mr. Johnson. Well, yeah, recognizing the power of 
prosecutors to decide on the charges to indict upon, if there 
is still a lot of discretion with agents when it comes down to 
persons whom they are investigating and decide to arrest, what 
to charge them with, and those decisions need to be subject to 
some care and some oversight by superiors in that department.
    Mr. Comey. I agree very much.
    Mr. Johnson. All right. Thank you, and I yield back.
    Mr. Goodlatte. The Chair thanks the gentleman.
    Recognize the gentleman from Ohio----
    Mr. Jordan. Thank you, Mr. Chairman.
    Mr. Goodlatte [continuing]. Mr. Jordan for 5 minutes.
    Mr. Jordan. Director, thank you for being here. Thank you 
for what you do. Your opening statement is one of the best I 
have heard. Appreciate what you and your agents do every single 
day.
    Do you believe, Director, that the Attorney General should 
name a special prosecutor in the investigation of the targeting 
of conservative groups by the Internal Revenue Service?
    Mr. Comey. I don't think that is something for the FBI 
Director to comment on.
    Mr. Jordan. Every single Republican in the House said we 
should; 26 Democrats in the House said we should, including Ms. 
DelBene and Mr. Garcia. Bipartisan, overwhelming bipartisan 
majority said that we, in fact, should do that based on what we 
have heard and learned about this investigation over the last 
year, but you don't believe we should do that?
    Mr. Comey. No, I said I don't believe it is something the 
FBI Director should be opining on.
    Mr. Jordan. Okay. Let me go back to where Mr. Issa was just 
a few minutes ago. We learned from Freedom of Information 
requests from Judicial Watch that a Department of Justice 
attorney Richard Pilger met with Lois Lerner back in October of 
2010. We interviewed Mr. Pilger, and we discovered in that 
interview that disks of information were given to the FBI from 
the Internal Revenue Service. In fact, we got a letter on June 
2nd, just a little over a week ago, from the Department of 
Justice telling us that there were 21 disks that were provided 
by the Internal Revenue Service to the Federal Bureau of 
Investigation in the fall of 2010 containing 1.2 million pages 
of information. Two days later we got another letter where 
basically the same Mr. Kadzik of the Department of Justice 
said, Oops, we forgot to tell you something, 21 disks, 1.2 
million pages of information, and some of that information 
included confidential information protected by Internal Revenue 
Code section 6103.
    So we got a database that you have had for 4 years, which--
not according to us, but according to Department of Justice 
lawyer Mr. Kadzik and the IRS--contained information that is 
confidential, against the law, and you have had this database, 
an illegal database, for 4 years. Did you use that database 
during any of that 4-year time span?
    Mr. Comey. No.
    Mr. Jordan. Not at all?
    Mr. Comey. My understanding is the only thing that was 
done, the analysts looked at the table of contents to see what 
was on it.
    Mr. Jordan. And you are sure about that?
    Mr. Comey. As sure as I can be. I read the same thing you 
read, and so I have asked----
    Mr. Jordan. Remember, we got the email from Mr. Pilger to 
Lois Lerner that says this: The FBI thanks Lois. The FBI says 
raw format is best because they can put it into their systems 
like Excel. This is direct communication from Mr. Pilger and 
Lois Lerner, the lady who is at the center of this entire 
scandal. So you got it in the format you wanted it in, and you 
are saying you didn't use it, and you have had this for 4 years 
and didn't use it?
    Mr. Comey. That is my understanding, yep.
    Mr. Jordan. We know things like Catherine Engelbrecht in 
Texas, who had six visits from the FBI--two in person, four 
over the phone--while her application for (c)(4) status was 
pending, and you are telling us none of this information was 
used to target people like Catherine Engelbrecht?
    Mr. Comey. That is what I am telling you.
    Mr. Jordan. And when did you turn this information back?
    Mr. Comey. Sometime within the last few days, I think.
    Mr. Jordan. When did you first learn you had this database 
that was never used, that was an illegal database of 1.2 
million pages 21 disks? When did you learn that you had this 
information?
    Mr. Comey. Me personally?
    Mr. Jordan. Yes.
    Mr. Comey. What is today, Wednesday? I think Monday.
    Mr. Jordan. So the FBI has had this. The new Director 
didn't know you had this for the last 4 years? You just learned 
a week ago?
    Mr. Comey. No, I don't think anything was being done with 
it. It was sitting with this intelligence analyst in the 
Criminal Division.
    Mr. Jordan. Do you know if there was a court order used to 
obtain this database which contained illegal, confidential 
taxpayer information? The only way you can get personal and 
confidential taxpayer information is a court order. Do you know 
if a court order was used to get this?
    Mr. Comey. I don't think one was. I think the disks were 
sent by the IRS.
    Mr. Jordan. The Justice Department would just say, IRS, 
send us the information, and the IRS just sent over illegal, 
confidential taxpayer information, no court order involved at 
all?
    Mr. Comey. My understanding is there was no court order. 
They sent us the disks, which was represented to us to be 
publicly available information.
    Mr. Jordan. What kind of conclusion do you think the 
American people are going to reach when they understand now 
that the Federal Bureau of Investigation had 1.2 million pages 
of information which contained confidential taxpayer 
information, you have had it for 4 years, and they are supposed 
to believe this was never used in any way to target people when 
we have examples like Catherine Engelbrecht and True the Vote 
who got 6 visits from the FBI while her application was pending 
at the Internal Revenue Service, and they are supposed to 
believe, you know what, we just had it, we didn't know about 
it, and we gave it back; sorry, no harm no foul? That is what 
they are supposed to believe?
    Mr. Comey. Yes, they should believe that because I am 
saying it, and because of what they know about the FBI.
    Mr. Jordan. So let me go back to the first question, the 
very first question. Twenty-six Democrats, every single 
Republican in the House said, we need a special prosecutor. As 
the Chairman said in his opening statement, your organization 
on January 13--at least according to the Wall Street Journal--
your organization, the FBI, leaked to the Wall Street Journal 
saying no one was going to be prosecuted. I am just saying what 
the Wall Street Journal----
    Mr. Comey. I don't know why they said an FBI person leaked 
that.
    Mr. Jordan. That is what the Wall Street Journal said.
    No one is going to be prosecuted; the President says there 
is no corruption, not even a smidgen; the person heading the 
investigation Ms. Bosserman, the attorney heading the 
investigation, is a maxed-out contributor to the President's 
campaign; and now we know 1.2 million pages of confidential 
taxpayer information has been in the hands of the FBI, given to 
them by Lois Lerner in the format the FBI wanted, and you are 
saying the FBI, the head of the FBI, the Director of the FBI 
shouldn't comment on whether we need a special prosecutor or 
not?
    Mr. Comey. Yeah, I think that is right. I don't think the 
FBI Director should be offering a view on that. What I care 
about is do my folks think there is any----
    Mr. Jordan. I think the American people would like a 
special prosecutor, Director.
    Mr. Comey. I am sorry?
    Mr. Jordan. I think the American people would like a 
special prosecutor as evidenced by the fact that we had 26 
Democrats join every single Republican say that very thing.
    Mr. Comey. Well it may be so. I am not arguing one way or 
the other. I am just telling you I don't think given my role it 
is something I should be offering a view on.
    Mr. Goodlatte. The time of the gentleman has expired.
    Mr. Jordan. Thank you, Mr. Chairman.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Puerto Rico Mr. Pierluisi for 5 minutes.
    Mr. Pierluisi. Thank you, Mr. Chairman.
    Director, welcome to the Committee. I commend you on your 
demeanor and responsiveness at this hearing up to now.
    As I did when the DHS Secretary appeared before the 
Committee last month, I would like to outline a narrative and 
then ask you to comment.
    Mr. Comey. Okay.
    Mr. Pierluisi. Puerto Rico is home to fewer than 4 million 
American citizens. In 2009, there were about 900 homicides on 
the island. In 2010, there were nearly 1,000 homicides, and in 
2011, there were over 1,100 homicides, an average of more than 
3 a day, the most violent year in the territory's history. In 
each year our homicide rate was twice as high as any State. 
Most murders in Puerto Rico are linked to the drug trade. 
Puerto Rico is within the U.S. customs zone and is used by 
organizations transporting narcotics from South America to the 
U.S. mainland.
    Given the crisis, I examined the level of resources that 
DOJ and DHS were dedicating to combat drug-related violence in 
Puerto Rico and came away discouraged because the Federal law 
enforcement footprint on the island was inadequate. I have done 
everything possible to impress upon officials the need for an 
improved Federal response to drug-related violence in Puerto 
Rico both for its own sake and for the sake of communities in 
the U.S. mainland and on the eastern border and so on.
    Starting in 2012, my message finally began to register, 
particularly at DHS. The agency created a task force charged 
with taking steps to reduce Puerto Rico's murder rate. The 
Coast Guard has substantially increased the amount of time it 
ships and patrol aircraft spends conducting counterdrug 
operations off Puerto Rico. Last year I surged 30 agents to the 
island where they made hundreds of arrests and seized vast 
quantities of drugs and firearms, and CBP, once it assumed 
control of the counterdrug TARS program earlier this year, 
repaired the radar in southern Puerto Rico that had been 
rendered inoperable since 2011.
    I know DOJ agencies have also enhanced their efforts, as 
the U.S. attorney for Puerto Rico confirmed this very week when 
I met with her. I have been particularly impressed with Illegal 
Firearms and Violent Crime Reduction Initiative, a joint DOJ-
DHS effort now in place throughout much of Puerto Rico. I have 
also been impressed by other initiatives in which the FBI plays 
an important role, like the anticarjacking initiative and the 
creation of seven strike forces, consisting mostly of local 
vetted officers that target drug traffickers and violent 
criminals in high-crime areas on the island, including public 
housing.
    As a result of these enhanced Federal efforts, the number 
of homicides this year is on pace to be 40 percent lower than 
in 2011. Nevertheless, Puerto Rico's murder rate is still the 
highest in the country, averaging two homicides a day.
    Now is the time for the Federal Government to build upon 
its recent success to redouble its efforts and not to relent. 
By the way, Congress has been clear on this point. The 2015 DOJ 
funding bill directs the Attorney General to assess the 
adequacy of current law enforcement personnel and resources 
assigned to Puerto Rico, and to identify resources necessary to 
close enforcement gaps in future subjects at budget 
submissions. I am told, though, by reputable sources that while 
the FBI does great work in Puerto Rico, there are not nearly 
enough agents, given the severity of the public safety crisis 
we are facing on the island.
    Would you comment on my narrative and tell me if the FBI 
will either increase or at least surge on a temporary basis the 
number of agents it has in Puerto Rico?
    Mr. Comey. Well, thank you, sir. My first comment is your 
passion is justified.
    Mr. Pierluisi. Thanks.
    Mr. Comey. There is a significant problem with violent 
crime, drug-related violent crime, in Puerto Rico. It was 
something I didn't know much about before taking this job, and 
I am worried a lot of folks don't understand the nature of the 
problem.
    I think it was my second day as FBI Director I went down to 
our command center to watch as my hostage rescue team and a 
bunch of my SWAT teams participated in a huge takedown in one 
of the housing projects. As you know, the problem is centered 
in the housing projects, so it is something we spend a lot of 
time on.
    Not knowing that you and I were going to meet today, last 
week I sent a note to the whole office in San Juan thanking 
them for all the work they have been doing on public 
corruption, violent crime of all sorts. So it is something that 
we are very focused on.
    Whether we are going to put more agents there or not, I 
can't tell you sitting right here, but as you know about us, 
every 6 months we do a review of our threats and where our 
resources are against those threats. That process is going on 
right now. I don't know the answer sitting here.
    Mr. Pierluisi. Thank you.
    Mr. Comey. But it is something we are very focused on. We 
have got some things going on right now that I can't talk about 
that you will read about soon, more effort by us to try and 
lock up some of these bad guys.
    Mr. Pierluisi. I look forward to it.
    Mr. Goodlatte. Time of the gentleman has expired.
    The Chair recognizes the gentleman from Texas Mr. Poe for 5 
minutes.
    Mr. Poe. Thank the Chairman.
    The tenor of my questions has to do with about Federal 
Government agencies' intimidation against citizens, whether it 
is legal or illegal, and whether agencies working together to 
intimidate citizens. And specifically I want to talk about one 
of my constituents, Catherine Engelbrecht.
    She and her husband run a manufacturing small business. 
They started King Street Patriots and True the Vote, two 
different organizations. They filed in July of 2010 with the 
IRS for nonprofit status. Since they did that, and I know you 
don't have this information in front of you, but let me read to 
you what happened to them after that was filed.
    The FBI domestic terrorism unit first inquired about the 
organization. What in the world is the FBI terrorism unit? It 
sounds terrible. What is that?
    Mr. Comey. Well, it is not terrible. It is men and women--
--
    Mr. Poe. I mean, it sounds very serious. It is not a 
terrible organization.
    Mr. Comey. Well, it is our domestic terrorism operations 
unit, which we have had for a long time, to try and investigate 
people who want to engage in acts of violence here in the 
United States not connected to an Al Qaeda-type group.
    Mr. Poe. And I appreciate what you said. I don't mean it is 
a terrible unit. I just mean it sounds serious. They certainly 
were concerned about it.
    That was in 2010. 2011, they are inquired by the FBI 
domestic terrorism unit again. 2011 January, personal audit of 
Engelbrecht Enterprises by the IRS. March, the IRS questions 
the nonprofit application. May, the FBI general inquiry, King 
Street Patriots. October, True the Vote, IRS questions 
nonprofit application. 2011, in June, December, but also in 
November, FBI inquired three more times with King Street 
Patriots. February of 2012, the IRS questions them again. 2012, 
in February, King Street Patriots, the IRS questions their 
application and asks them questions about where they have been, 
what meetings does Catherine Engelbrecht speak at, who has she 
spoken to, who is she speaking to in the future, and copies of 
the speeches are requested and who attended all of these 
meetings. Once again they are investigated, like I said, in 
February, King Street Patriots, same situation. And then the 
Bureau of Alcohol, Tobacco and Firearms investigates. They 
audit Catherine Engelbrecht's business.
    We filed a letter of inquiry, Freedom of Information Act, 
with the Justice Department asking if they were under criminal 
investigation. Quick response: No, they are not under criminal 
investigation.
    July, OSHA audits them. December, Texas Commission on 
Environmental Quality audits them. IRS in December questions 
them again. In March of 2013, IRS asked them more questions. 
And then finally the Bureau of Alcohol, Tobacco and Firearms 
questioned them, a second unscheduled audit.
    Now, based on that information, is it illegal for different 
government agencies to work together to intimidate some 
individual or business?
    Mr. Comey. Without legitimate investigative purpose?
    Mr. Poe. Sure. And as the Justice Department said in their 
letter to me that they are not under investigation.
    Mr. Comey. My problem is I don't know enough about the 
situation to comment. I don't know whether those dots are all 
connected. I hope their encounters with my folks were pleasant 
and professional. I expect that they were, but I don't know 
enough to say.
    Mr. Poe. I understand. But does that raise any suspicion to 
you? It is interesting all these different government agencies 
over a certain period of time, they all just suddenly or start 
investigating an organization that Justice Department said is 
not under criminal investigation. Doesn't this look a little 
suspicious?
    Mr. Comey. I can imagine them wondering about it, but based 
on what you have said, I don't know enough about their 
business----
    Mr. Poe. I understand.
    Mr. Comey. I just can't say.
    Mr. Poe. Okay.
    Mr. Comey. Yeah.
    Mr. Poe. Just a general hypothetical. It just seems to me 
that it looks like there might be a coordinated effort here by 
different departments. If there is a coordinated effort, 
hypothetical, take this case away, hypothetical, is that some 
violation of Federal law for different agencies to work to 
intimidate, let us say?
    Mr. Comey. It was, as you said, without proper 
investigative purpose, it is terrible, and I suspect it is 
unlawful in some respect, but, again----
    Mr. Poe. You don't know?
    Mr. Comey. I don't know, but I know the FBI, and----
    Mr. Poe. Yeah, I guess.
    Mr. Comey. I can't comment beyond that. I can't imagine 
that we would be part of some effort to try and intimidate 
someone without lawful investigative purpose. I just can't see 
it.
    Mr. Poe. I thank the Chairman. I have other questions I 
would like to submit for the record.
    Mr. Goodlatte. The gentleman will be permitted to do so 
under the rules of the Committee.
    Mr. Poe. Thank you.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Tennessee Mr. Cohen for 5 minutes.
    Mr. Cohen. Thank you, Mr. Chair.
    First of all, it is very good to see you here. I was 
pleased with your appointment. The last time I saw you, I 
think, was when you were here concerning hearings about the 
Justice Department and some unusual circumstances in which you 
were heroic in your duties to the Constitution, and to your job 
and to justice. So it is really commendable that you were 
appointed and you are serving.
    We have had the last few days in Congress moments of 
silence. A moment of silence has almost become a regular ritual 
for killings. We had one yesterday for the school shooting in 
Oregon, we lost a child. We had one the day before for the 
killing of law enforcement folks in Nevada. The student who was 
killed at Seattle Pacific about 3 or 4 or 5 days earlier didn't 
get a moment of silence because we weren't here, but they are 
constantly happening, and I think since Newtown there have 
been, I think, 74 shootings in schools.
    What can Congress do to provide the FBI and law enforcement 
in general tools to reduce gun violence and these type tragic 
deaths? Do you have any recommendations for us of something 
that we can get accomplished that law enforcement would find an 
important element?
    Mr. Comey. Yeah, with respect to the FBI, we are trying to 
do a lot of different things, and again, as I began, I thanked 
you for the budget support we have been given. We are applying 
those resources to train, to try and push out clues and 
indicators about what might indicate someone about to go and do 
one of these things. There is a lot of different things we are 
doing.
    I mentioned earlier one of the challenges I am told that we 
face in our national instant background check system is getting 
good mental health records from the States, and the States are 
working to try and get their acts together to give us. But I 
can't sit here and suggest a particular legislative fix at this 
point, but I agree with you, I call whenever a law enforcement 
officer is killed in the line of duty in the United States. I 
have been on this job 9 months; I make way too many calls. And 
we lost two great people with families to a brutal execution in 
Las Vegas, so I share your pain in that.
    Mr. Cohen. Are there certain guns you think should not be 
allowed, or cartridges, chambers, whatever, cartridges that may 
be unnecessary for people to enjoy sport and shooting that 
might be used more for mass killings?
    Mr. Comey. You know, that is something I am not expert 
enough to answer and really isn't something for the FBI to 
answer.
    Mr. Cohen. Thank you, sir.
    Public corruption, you have said, is your top criminal 
priority. In 2010, the Supreme Court found honest services 
statute unconstitutional, and the efforts to resurrect that 
have stalled. I am concerned about public trust and public 
authority in government. Do you have any thoughts about how we 
can or should pass a new honest services statute and/or other--
would that be an important tool to you in fighting public 
corruption?
    Mr. Comey. It has long been an important tool, so that 
would be good to see. We are still making these cases, 
unfortunately and fortunately, I guess. The reason it is such a 
high priority for us is it is work we are uniquely good at and 
unfortunately we are uniquely needed to do everywhere in the 
country.
    Mr. Cohen. You haven't studied the statute per se and the 
Supreme Court decision?
    Mr. Comey. I remember the decision. I used to use the 
statute when I was a line prosecutor in Virginia and New York, 
but beyond that I don't know enough to comment on particular 
legislation.
    Mr. Cohen. Thank you.
    You are building a new building or having a new building 
built.
    Mr. Comey. I hope so.
    Mr. Cohen. Right. When do you expect that to be finished?
    Mr. Comey. It is a GSA project. They have told me 5 to 7 
years. I look at the clock and think I have 9 years and 3 
months to go. I hope it will be, because we so badly need it, 
but it is sometime in my tenure.
    Mr. Cohen. So it is some time away, and it is during your 
tenure. I would hope that you would consider recommending or 
acting in such a way to name that building for somebody that 
reflects the modern FBI, and somebody who the American public 
would have faith and reinstill faith in the FBI because they 
are a person who would be part of the new FBI and the new way 
we do things and in your tradition of respecting the 
Constitution and the rule of law.
    Mr. Comey. Thank you, sir.
    Mr. Cohen. You are welcome.
    Thank you. And I yield back the balance of my time.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
South Carolina Mr. Gowdy for 5 minutes.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Director, you have excellent agents in South Carolina, and 
I know it would mean the world to them if you ever had a chance 
to tell them that one of their fellow citizens in South 
Carolina appreciates their work. There is a gentleman by the 
name of Jim Lanneman in particular that really is a credit to 
the Bureau.
    Mr. Comey. Okay. Well, I haven't been there yet. I am 
visiting all 56. By the end of this year. I will be in 
Columbia, and I will find that guy and embarrass him.
    Mr. Gowdy. Well, I probably just did embarrass him. Let me 
know when you are visiting. I will make sure Senator Graham is 
not in the State so you don't have to worry about serving any 
warrants while you are there.
    Jimmy Jordan asked you about the IRS targeting scandal. I 
am not going to ask you about it because you can't comment, and 
it is not fair for me to ask you a series of questions where 
you have to say you can't comment. I just want to make an 
observation to maybe try to help you understand where Jimmy is 
coming from.
    You used to be in a courtroom where you had challenges for 
cause, and you had peremptory challenges. And I have never 
argued that because a prosecutor was politically engaged and 
active or maxed out to a particular political party, I have 
never argued that that was a challenge for cause. Of course 
that person can still be fair. But out of the universe of all 
potential Federal prosecutors, why anyone would pick someone in 
a sensitive investigation that involves political targeting 
with that background just mystifies me.
    And, again, I am not going to ask you to comment, I am just 
going to ask you to think about the fact that we do have a 
special prosecutor statute where there is a conflict, or where 
it furthers the interest of justice, and when you have a chief 
executive who put, in my judgment, the Department of Justice 
and the Bureau in a very awkward position by saying there is 
not a smidgen of corruption when the investigation is not over, 
and when you have a prosecutor that has deep political ties, I 
would just ask you in the quietness of your own soul to reflect 
upon whether or not we can ever have a fact pattern that 
warrants a special prosecutor if it is not this.
    What, in your judgment, are the limits of prosecutorial 
discretion?
    Mr. Comey. Well, certainly the law is a clear limit. You 
operate that discretion within the law, and then obviously you 
have a sense of integrity and fair dealing that should be at 
the core of all Federal prosecutors, of our culture. I am no 
longer a Federal prosecutor, but you know the Federal 
prosecutor culture. That is an important limit on discretion. 
That is probably the short answer.
    Mr. Gowdy. Do you think that there is a difference between 
the exercise of prosecutorial discretion and the wholesale 
failure to enforce a certain category of law?
    Mr. Comey. Potentially. Yeah, I don't know what you are 
referring to, but sure.
    Mr. Gowdy. Well, when your agents are asked by a member of 
the grand jury about drug amounts, you and I both know they are 
going to tell the truth; and when they are asked by a judge 
about drug amounts, they are going to tell the truth; and when 
they are asked by a probation officer about drug amounts, they 
are going to tell the truth. And we do have mandatory minimums. 
Some people like them, some people don't, but it is still the 
law. And I am troubled when any Attorney General, regardless of 
political affiliation, directs a group of prosecutors to no 
longer include in the charging document the drug amount.
    Surely there is a limit on what prosecutorial discretion 
is. And I will ask it differently. There are certain laws that 
forbid conduct, a possession of child pornography; there are 
certain laws that require conduct, like registering for 
Selective Service; and there are certain laws that require you 
to make reports to Congress. Surely prosecutorial discretion is 
not available in all of those categories of law.
    Mr. Comey. Well, as you know, in the Federal system there 
is tremendous prosecutorial discretion. It is one of the 
reasons that the sentencing guidelines and some of the 
mandatory minimums may have been imposed. But I guess I don't 
know with each of those categories you gave. I would imagine 
there is a certain amount of discretion, a prosecutor has 
discretion, as to whether to even commence a prosecution.
    Mr. Gowdy. I agree with that, but if Congress said, 
Director, we want you to file a report by July the 1st of each 
year about how many 924(e)s you prosecuted, I don't know that 
you can get away with saying, in the exercise of my discretion, 
I am not going to comply with that law. And politics is one 
thing, the law is something else, and when we use the word 
``prosecutorial discretion'' to excuse the failure to enforce a 
category of law, I think we are doing a real disservice to the 
concept of prosecutorial discretion, and I think we are doing a 
disservice to our Republic.
    Thank you, Mr. Chairman.
    Mr. Goodlatte. The Chair thanks the gentleman, recognizes 
the gentlewoman from California Ms. Chu for 5 minutes.
    Ms. Chu. Thank you.
    Director Comey, I am concerned about the individuals who 
have been placed on watch lists, such as the no-fly list, and 
that are placed there based on mistakes and incorrect 
information. The consequences for wrongful inclusion on the no-
fly list can be devastating. People are stigmatized as 
terrorists, barred from commercial flight altogether, detained, 
interrogated, and subject to long-term investigation. These 
people may lose the ability to obtain employment that requires 
travel or because the government shares information about the 
individual's inclusion on the watch list with a prospective 
employer.
    There have been numerous government audits which suggest 
that watch list entries have a high error rate, like the DOJ's 
inspector general reports. The most recent 2014 IG report 
suggests that there are still concerns regarding the agency's 
processes and procedures. The report found redundant and 
inefficient processes that clogged the system, and says that 
the FBI averages 44 business days to add suspected terror 
suspects referred by other agencies, but it takes twice as 
long, 78 days on the average, to remove cleared suspects, 
former suspects.
    Director Comey, I believe that defending our Nation against 
terrorism is important, but I also think that we have to 
carefully balance that with our civil rights and liberties 
under the law. What specific steps is the FBI doing to ensure 
that innocent Americans are not incorrectly placed on the no-
fly list, and what reforms are being made to ensure that those 
who are erroneously placed on the list are quickly removed?
    Mr. Comey. Thank you. First of all, I agree with you, the 
premise, it is important to protect our liberties. I know we 
have an extensive process that we go through before someone can 
get on the list to make sure we have got it right, and as you 
said, I am aware there is a process to remove someone if there 
is a mistake or the matter has been closed in some fashion. I 
don't know enough to respond to your concern about the time lag 
or what improvements are needed.
    Ms. Chu. Could you respond to us in writing?
    Mr. Comey. Sure.
    Ms. Chu. Well, let me then ask about hate crime tracking. 
After the 9/11 attacks, hate crime and violence committed 
against individuals in the Sikh, Hindu, and Arab American 
communities have increased. In recent years there have been 
violent anti-Sikh attacks across the country, including the 
horrific massacre at the Sikh temple in Oak Creek, Wisconsin, 
that took the lives of six worshippers.
    In March 2013, there were 100 Members of Congress, 
including myself, that sent a letter to the FBI and Attorney 
General Holder urging the FBI to include the religious groups 
and Arab Americans in hate crime tracking; for instance, 
tracking them as Sikh, or anti-Sikh, or anti-Hindu or anti-Arab 
crimes rather than an all-encompassing category. We welcomed 
the FBI's announcement last year that it will be expanding the 
hate crime incident report used by law enforcement to include 
crimes motivated by bias against Sikhs, Hindus, and Arab 
Americans as well as other religious groups.
    So, Director Comey, could you please provide us with an 
update on the status of the revisions to the hate crime 
tracking program and when you expect the updates to be 
completed?
    Mr. Comey. I will have to give you the particulars in 
writing, but I am aware of the issue, and I know that we have 
made progress in updating them to include the categories you 
talked about, and, most importantly, to train our State and 
local counterparts about this, because they are the ones who 
supply the data to us about what these categories mean, why 
they matter. I know there has been a tremendous amount of 
training going on, but I will have to follow up to give you the 
particulars on it.
    Ms. Chu. Okay. We would look forward to having that in 
writing, because we understand the decision has been made, but 
it has not yet been implemented.
    Then could I ask about this Task Force on Domestic 
Terrorism? Attorney General Eric Holder announced that he would 
revive it to stop violent attacks inside the U.S. motivated by 
a variety of causes like antigovernment animus to racial 
prejudice. I understand the FBI, DOJ, and U.S. Attorney's 
office, Attorney General's office, will make up the task 
force's Domestic Violence Terrorism Executive Committee. Can 
you detail how the task force will expand on the FBI's efforts 
to detect and prevent hate-based violence?
    Mr. Comey. I don't think it is going to affect me at all 
because this is something we have been doing all along and care 
an awful lot about. What I think this is is an effort that came 
from the U.S. attorney community and is a product of their 
desire to see coordination within their community and with non-
DOJ entities to make sure everyone is meeting on a regular 
basis to coordinate. Now, the fact is we do that already. I 
think they are just looking to be more involved or to improve 
it. But I asked my domestic terrorism guys the next morning 
when I heard about this, and I don't think it is going to 
change our life at all because we have been doing this, and 
this is work we care a lot about.
    Ms. Chu. Could you respond to that in writing as well, 
though?
    Mr. Comey. Sure.
    Ms. Chu. Thank you. I yield back.
    Mr. Goodlatte. The time of the gentlewoman has expired.
    The Chair recognizes the gentleman from Idaho Mr. Labrador 
for 5 minutes.
    Mr. Labrador. Thank you. Good morning. I actually really 
enjoyed your presentation and your answers. I like your 
forthrightness, and I have enjoyed listening to you.
    Mr. Comey. Sure. I will have to get over this.
    Mr. Labrador. You will eventually. You said you still have 
9 years to go, so.
    As Deputy Attorney General under the Bush administration, 
you refused to reauthorize the warrantless wiretapping program, 
which I actually commend you. I think that was a courageous 
move on your part. You stated that you were asked to be part of 
something that is fundamentally wrong. My question is was it 
fundamentally wrong because it wasn't authorized by Congress, 
or was it fundamentally wrong because it was not 
constitutional?
    Mr. Comey. That situation involved programs--and I am still 
going to be careful about it because I don't know what part of 
it has been declassified--where I concluded there was not an 
adequate legal basis under the Constitution or under a statute 
or some other legal basis for continuing it.
    Mr. Labrador. So in that occasion, did you have a problem 
with the Constitution--even if it would have been authorized by 
Congress. Because I understand the Bush administration later 
sought authority from Congress, and I think mostly in part 
because of your statements. If it would have been authorized by 
Congress, do you still think that it would have been 
constitutional, or was it just the legal authority that you 
were looking for?
    Mr. Comey. I am searching back in my memory now. I am not 
sure I can remember well enough to answer because there were 
different angles, different varieties to the issue.
    Obviously, I am someone, as you all are, who devoted my 
life to the rule of law, and there had to be an adequate legal 
basis for something either in the Constitution or in a statute 
by Congress. If Congress had acted, and the congressional 
action had not been challenged on a constitutional basis or 
overturned, I think that would have been an adequate footing.
    Mr. Labrador. Okay. Now, severe abuses of this program have 
actually come to light, including NSA analysts listening to 
overseas calls of U.S. Soldiers to their girlfriends and wives 
in the States. But when the wiretapping was challenged, the 
Solicitor General promised the Supreme Court that if any of the 
info was ever used in a court, the defendant would be notified.
    But last year a Reuters report found that DOJ officials are 
using NSA-gathered intelligence as leads for criminal cases 
without informing the defendant of the origin of the case and 
misleading Federal prosecutors about its origins. Do you 
believe that such use of NSA intercepts are lawful?
    Mr. Comey. That is a complicated question, one I am trying 
to parse to make sure I don't talk about anything that is 
classified in an open setting. I can speak for the FBI. I think 
the way in which we interact with information collected by the 
NSA or by the FBI is entirely lawful. And I also understand--I 
don't know the history you are talking about well enough to 
comment--but that it is now the practice where someone is 
notified in the circumstances you talked about.
    Mr. Labrador. Well, the reports are that they were supposed 
to be notified, and in some cases they have not been notified.
    And would you investigate any of these allegations if it is 
true that some of these people were not notified?
    Mr. Comey. I don't know whether it would be FBI 
jurisdiction to investigate it. I suspect there is an inspector 
general who would have jurisdiction to investigate it. That is 
probably the most I can say based on what I know from your 
question.
    Mr. Labrador. Okay. Maybe we should have a conversation 
about this. I think that this is an area of concern that some 
of us have about the NSA. I think there have been some abuses. 
And obviously, we are all concerned about Fourth Amendment 
protections, and from your testimony, it sounds like you are as 
well. So hopefully we can work together on this.
    And I actually have no more questions, so I yield back the 
balance of my time.
    Mr. DeSantis. [Presiding.] Gentleman yields back.
    The Chair now recognizes the gentleman from Louisiana Mr. 
Richmond for 5 minutes.
    Mr. Richmond. Thank you, Director.
    Let me just say thank you for being here, and that I have 
the utmost confidence in my SAC in New Orleans, Louisiana, 
which is Michael Anderson, and my new U.S. attorney.
    Part of what you brought out in talking about public 
corruption, and in your statement you are talking about the 
people's confidence in the system, more or less. Something that 
erodes all of our confidence in Louisiana in the system is the 
fact that every couple of months now we are getting someone 
released from prison who was actually innocent because of 
prosecutorial misconduct. And because public confidence is so 
important, at what point does intentional acts of prosecutorial 
misconduct rise to the level of public corruption?
    Mr. Comey. That is a great question. I am not sure I would 
call it public corruption, but willful misconduct in 
prosecuting someone who you knew to be innocent or violation of 
the rules of law can be criminal conduct. The label, frankly, 
doesn't matter; it could be criminal conduct.
    Mr. Richmond. Is it something that you would commit to 
looking into? And I think it is very important for inner-city 
communities to have that confidence to step up in terms of 
being witnesses, to place their confidence in the system to 
know that the system is on the up and up. And I think that 
every day we have someone released because of an intentional 
Brady violation or something of that nature, I think it is 
something that I would like you all to look into. So I would 
hope that you are open to doing that.
    The other thing I would like to bring up is that I think 
there was an article maybe a year ago that talked about whether 
the FBI tracks criminal conduct by their informants. So do you 
all do that?
    Mr. Comey. Yes.
    Mr. Richmond. Do you tolerate certain acts as acceptable as 
long as it is leading to catching a bigger fish?
    And I will let you know where I am going with this. Almost 
like Fast and Furious that my colleagues still bring up, which 
I was concerned about also, but if you look at the drug trade 
in inner-city communities, even though a drug dealer becomes an 
informant and helps us lead to bigger fish, he is still out 
there on the street, he is still creating addicts, and he is 
still creating crack babies, although my colleagues on the 
other side of the aisle don't take it that far, they stop at 
guns. I am also worried about that in the drug trade, and I 
think that I see it in my community. And I just wanted to see 
if you all have approached it like that or have conversations 
about continuing to let informants roam streets and do what 
they do.
    Mr. Comey. Yes. It is something we worry about a great deal 
in two ways. Obviously, unfortunately, the way the world works 
is the best view of criminal activity is also going to come 
from a criminal. So a lot of the people who are necessarily our 
informants have done bad things before they became informants. 
So we study that very carefully to figure out who should be an 
informant.
    And then obviously we are very worried about our informants 
committing criminal acts after they are working with us, and 
that is subject to a regime called ``otherwise criminal 
activity,'' where if an informant is going to continue to be 
involved in criminal activity, there are a whole bunch of 
complicated layers of review to make sure that we approve that 
or disapprove it, because we don't want people working for the 
FBI committing crimes unless it is absolutely necessary, and it 
is carefully monitored as part of trying to take down a bigger 
fish.
    Mr. Richmond. And I would hope you keep in mind the things 
I said earlier.
    The other part of my question about public corruption is 
when the investigation starts to affect political elections, 
and I will just give you an example I raised with the Attorney 
General, which is the D.C. mayoral race, where the 
investigation came out that the mayoral candidate was under 
investigation, which the Attorney General defended and said it 
just happened to be that time, and it came out.
    But then I can point to the North Carolina mayor, who was 
indicted, who Federal agents gave money to years ago, and we 
allowed him to stay in office, run for mayor, get elected, then 
indict him. And now it will cost the taxpayers a special 
election, and who knows what he has done in the meantime.
    I am worried about individual SACs or U.S. Attorneys being 
able to play politics with it when, if we know someone is a bad 
actor, we act on it immediately, or, if we are not going to 
affect elections, let us not affect elections. So that is a big 
concern of mine.
    But let me just thank you for the job you do and the fact 
that your agents lay their lives on the line every day.
    But I am very concerned about our inner-city communities 
and the fact that every day we are dealing with weapons of mass 
destruction in terms of assault weapons and so forth. And as we 
get the small drug dealers, let us get the big ones, too. Thank 
you for what you do.
    And I yield back.
    Mr. Comey. Thank you.
    Mr. DeSantis. Gentleman yields back.
    The Chair now recognizes the gentleman from North Carolina 
Mr. Holding for 5 minutes.
    Mr. Holding. Thank you, Mr. Chairman.
    Director Comey, I think your previous experience as a 
career assistant United States attorney is going to be some of 
the best experience that you have for making a successful 
directorship of the FBI. I recall when you were the DAG, I was 
an assistant United States attorney, and it was your previous 
experience as a line assistant that made your tenure as DAG so 
successful. You were certainly widely regarded as a 
prosecutor's prosecutor, and you brought to bear your 
experience of how things actually work in the field to make the 
Department of Justice work better for the U.S. attorney's 
offices. And I think you will do the same for the FBI.
    So in your experience as an assistant, and certainly in 
your supervisory experience as a U.S. attorney and as the 
Deputy, and from what you are hearing from your troops in the 
FBI, how important is cooperation in a Federal investigation of 
any variety?
    Mr. Comey. Critical. It is the coin of the realm in the 
Federal system, as you know from your own experience.
    Mr. Holding. And how important do you think minimum 
mandatory sentences are in getting that cooperation from 
defendants?
    Mr. Comey. Significant. Been a very useful tool in 
eliciting that cooperation in my career.
    Mr. Holding. So when a defendant is looking at a minimum 
mandatory of 5 years or 15 years or 30 years, and that 
defendant's only opportunity to get out from under that minimum 
mandatory sentence is to provide substantial cooperation to the 
government, you think that is an inducing factor for that 
defendant to cooperate?
    Mr. Comey. Yes, I do. I have seen it hundreds of times.
    Mr. Holding. So if assistant U.S. attorneys are deprived of 
that tool in their toolbox of getting cooperation, do you think 
that will have an impact on Federal law enforcement, on your 
ability as a Federal law enforcement officer to get your cases 
successfully completed?
    Mr. Comey. Sure. If they lose the tool, yeah, sure.
    Mr. Holding. Again, talking about your tenure as a line 
assistant, I seem to recall that you were involved with Project 
Triggerlock in Richmond, which was going after convicted felons 
who are caught with a firearm or a single piece of ammunition 
and using the Federal firearms laws to take these criminals, 
violent felons, off the street in a wholesale fashion.
    Mr. Comey. Yes.
    Mr. Holding. Triggerlock was successful.
    Mr. Comey. We called it in Richmond Project Exile. But it 
was the same concept is trying to send a very powerful message 
to criminals: You better not carry a gun.
    Mr. Holding. And when you were the Deputy, you oversaw the 
implementation of Project Safe Neighborhoods throughout the 
U.S. attorney community, which was the same thing of going 
after violent felons; just catch them with a firearm or a 
single piece of ammunition, you can put them away for a minimum 
of 5 years, up to life in prison, correct?
    Mr. Comey. Yeah. We did that across the country.
    Mr. Holding. And is it your recollection that the decline 
in crime rates across the country where that program was 
implemented was--the decline was related to the implementation 
of Project Safe Neighborhoods?
    Mr. Comey. I have always thought so. Academics tell me it 
is a complicated question, but I have always thought that when 
you send a message to drug dealers and felons as strong as we 
sent, it changes behavior, which drives crime down.
    Mr. Holding. Also in your experience as an assistant, and 
as a U.S. attorney, and as the Deputy, and certainly in your 
role now, is it your experience that Federal prosecutors 
prosecute nonviolent drug offenders on a regular basis?
    Mr. Comey. Not my experience. In fact, I don't know that I 
have ever in the offices I worked done that.
    Mr. Holding. If you were told that in Federal prisons, more 
than 50 percent of the occupants of Federal prisons are 
nonviolent drug offenders, would that surprise you?
    Mr. Comey. More than 50 percent?
    Mr. Holding. Yes.
    Mr. Comey. I don't know the stats, but that would surprise 
me.
    Mr. Holding. That statistic has been alleged several times 
by Members of this Committee, and I find it absolutely 
unbelievable. I don't think it is accurate, because in my 
experience of being in a U.S. attorney's office for 10 years as 
an assistant, a first assistant, and a United States attorney, 
out of the thousands of cases, I never recall us going after a 
nonviolent drug offender.
    Mr. Comey. Sometimes we would, to flip them into a gang, if 
I was working a gang case. But, yes.
    Mr. Holding. Thank you very much, Mr. Chairman. I yield 
back.
    Mr. DeSantis. Gentleman yields back.
    The Chair now recognizes the gentlewoman from Texas for 5 
minutes.
    Ms. Jackson Lee. I am over here.
    Mr. Comey. Sorry.
    Ms. Jackson Lee. Let me thank the Chairman and let me thank 
the Ranking Member as well for the yielding of the time and 
just to put on the record for my colleagues that we were in a 
Homeland Security markup, and, therefore, I did not hear the--
have the wisdom of the questions asked and maybe answered by my 
colleagues.
    I am going to start out first to congratulate you for your 
service. We on the Judiciary Committee have interacted with the 
FBI over the years and many Directors, and we know how 
important the responsibilities that you have are.
    We also know how important it is to have an agency with 
such high esteem to reflect the diversity of America. Can you 
give me the outreach and the diversity numbers that you have 
with respect to women, African Americans, Hispanics, and 
Asians?
    Mr. Comey. With respect to within our population?
    Ms. Jackson Lee. Yes.
    Mr. Comey. Sitting here, I can't give you the exact 
figures, but it is not good enough, and the representation is 
below that in the workforce for similar cohorts. But I can get 
you the numbers.
    Ms. Jackson Lee. Would you get me the numbers?
    What internal effort now is being suggested or implemented 
under your leadership to answer your own question that it is 
not good enough?
    Mr. Comey. Well, first and foremost, the Director, me, 
talking about it a lot. I sent a message to all of 36,000 of my 
employees explaining why I care about diversity and why it 
matters. I believe it is a matter of effectiveness and doing 
the right thing. And so I sent them all that email to try and 
drive my view into this great organization.
    And then on a more tactical level, where the rubber hits 
the road, is in our recruitment efforts at colleges of 
different sorts, job fairs of different sorts. I mean, it is a 
complicated answer, but there is a lot going on. We have 
progress to make.
    Ms. Jackson Lee. I would like to get those numbers, and I 
would like to work with the FBI on its outreach approach.
    Second small point that I want to make is that you have 
SACs in our local areas. Let me thank you for the service of 
the SAC. One of the most important aspects of their work is 
letting the local community know what they do. So I encourage 
you to encourage your SACs, when a Member of Congress calls for 
them to join them at a town hall meeting or a university, which 
is nonpartisan, let them realize that part of their work as a 
SAC is to be engaged with the community. That is where they 
are, and it is very important. I hope that you will view that 
as an important role, not taking away from investigations, but 
an important role.
    Mr. Comey. I agree very much with that. I speak to all my 
SACs once a week, and one of the things I have told them 
repeatedly is, you are my representative in each of your 
communities, so get out there, know people, speak to people.
    The more you know the FBI, I think the more you like. We 
just have to get out there and talk to folks.
    Ms. Jackson Lee. I think you are very right.
    Now I want to pose a question. I am from Texas, and we have 
been dealing with a case that seems to have gotten caught in 
quagmire. Alfred Wright, a 28-year-old African American male 
from Jasper, Texas--and you may be familiar with Jasper, Texas, 
which was the site of the James Byrd killing--whose body was 
found 18 days after it was first reported in a location that 
had allegedly been searched more than 17 days before by local 
law enforcement. He was an honors graduate, and well liked and 
beloved, from a family that was well respected in the area.
    I recognize that this may be an ongoing investigation, but 
what I am going to request is a general briefing on the general 
parameters, because here is what I am hearing, Mr. Director, 
that this has gotten caught up in a scale of injustice that is 
almost unbelievable, which includes local officials. People are 
suspicious and suspect of even Federal law enforcement as to 
whether or not there is a too close and chummy a relationship. 
And I do not make these allegations; I make this in the form of 
an inquiry. So it is Alfred Wright, and I do want to get a 
briefing if you have any assessment of it at this time.
    The other is the Robbie Tolan case, which I believe this is 
a case of a young man shot on his own front lawn, with his 
parents saying that this is his house and his car, by a police 
officer in Bellaire, Texas. Unfortunately, this officer, under 
the State system, was acquitted. We are asking for a re-
investigation, which would include the FBI. I will pass on to 
you this letter, and I am also going to ask unanimous consent 
to put this letter into the record that I have sent, and also 
the letter again regarding Mr. Alfred Wright.
    Mr. DeSantis. Without objection.
    [The information referred to follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Ms. Jackson Lee. Let me finish my questions on two points.
    What kind of work the FBI is doing on police, local police 
abuse cases, and do you take those seriously?
    And, secondarily, with respect to your priorities in 
investigation, I think Mr. Holder made one point, I want to 
make another. But in your investigation in drug cases, do you 
prioritize with cartels and major actors versus the local guy 
on the street with a crack-possession situation that may wind 
up in the Federal system, but is not going to harm anybody but 
himself?
    If you could answer those two questions, I would appreciate 
it.
    Mr. DeSantis. Time of the gentlelady has expired, but if 
you want to take those, we will certainly let you do that.
    Ms. Jackson Lee. I thank the gentleman for his courtesy.
    Mr. Comey. With respect to the drug cases, you are exactly 
right. Our focus is on the international groups or the gangs 
that are dominating a particular community. As I said to the 
earlier question, if we are working a lower-level offender, it 
is in order to make the bigger case against the international 
group or the street gang.
    And with respect to the civil rights cases, police 
brutality cases, police corruption cases are an important part 
of our civil rights investigative priority. As you may have 
seen, we recently indicted a bunch of people from the sheriff's 
office in Los Angeles. It is work we do around the country. So 
it remains, unfortunately, but it is a necessary, important 
part of what we do.
    Mr. DeSantis. Thank you, Director Comey.
    Ms. Jackson Lee. Mr. Chairman----
    Mr. DeSantis. Gentlewoman's time has expired.
    Ms. Jackson Lee. My I ask to put just a correct name. I 
said the name incorrectly, and I just wanted to make sure that 
I put the gentleman's name correctly in the record for this 
letter. So I just ask the gentleman to yield.
    The gentleman's name that I was speaking of, so the FBI 
Director would have it, would be Robbie Tolan, I am so sorry, 
T-o-l-a-n.
    Mr. DeSantis. Without objection, name should be entered 
into the record.
    Ms. Jackson Lee. Thank you. I yield back.
    Mr. DeSantis. Chair now recognizes himself for a period of 
5 minutes.
    Thank you, Director, for your testimony.
    News reports suggest that the FBI is, in fact, probing the 
scandal at the Veterans Affairs Administration. Can you confirm 
those reports?
    Mr. Comey. Yes. Our Phoenix office has opened a criminal 
investigation.
    Mr. DeSantis. I would just encourage you to probe that. 
What I don't want to see happen, if there is some type of fraud 
committed and these veterans died, I don't want to see these 
government officials end up with a pension and the bonuses. I 
want to see them be held accountable. So please do that.
    In terms of the Benghazi and the perpetrators, would you 
say at this point that finding the perpetrators and bringing 
them to justice is purely a matter for law enforcement vice 
military at this point?
    Mr. Comey. I would say, as in any case, especially 
terrorism cases, all instruments of U.S. power are brought to 
bear.
    Mr. DeSantis. But is it your understanding? Because it is 
my understanding that the Administration's position is that 
they do not have the legal authority to lethally engage Ansar 
al-Sharia or whoever you want to say committed those attacks. 
Is that your understanding?
    Mr. Comey. It is not something that I am in a position to 
comment on just because it is not my remit. But also I don't 
want to talk about how I am approaching that investigation 
because I don't want to give anything away to the bad guys.
    Mr. DeSantis. No, I understand, but I think that--we run 
into a problem when they are making those claims that they 
don't have the authority to respond, but what happened leading 
up to that was the President authorized force to overthrow 
Gaddafi in Libya. There was no congressional authorization for 
that for sure.
    And so they said they had the authority to do that 
unilaterally, but then somehow you would not have the authority 
to seek a reprisal attack against somebody that massacred four 
Americans, including our Ambassador. So that legal view, that 
may not be something you can comment on, that does not square 
with me. I mean, it seems to me that the Libya intervention was 
the weaker case versus responding to the Benghazi terrorists, 
especially given the 2001 AUMF.
    There are reports that the FBI had noticed that we had been 
starting to see Islamic militants, I guess, who are U.S. 
Citizens leaving Minnesota to go wage jihad in Syria. And then 
there was also the report a couple weeks ago about a U.S. 
citizen suicide bomber who was from Fort Pierce, Florida, that 
actually committed a suicide attack in Syria.
    So you spoke about the problems that Syria could eventually 
present for us, but if some of these folks are motivated to go 
over there and wage jihad, how would you characterize the 
threat of jihad, those types of people attacking Americans here 
in the homeland?
    Mr. Comey. It is a significant concern of ours, which is 
why we try to identify. And if people are going to go over to 
fight jihad with one of these groups, Al Qaeda-affiliated 
groups, we want to find them and lock them up before they go, 
because once they go and get the worst kind of training and 
develop the worst kind of relationships, then they are a 
particularly difficult challenge because they are Americans, 
right, and they can flow back and do very bad things here.
    So this Syria problem is something not just the FBI is 
focused on, all parts of the U.S. Government are focused on 
this.
    Mr. DeSantis. What tools do you use if somebody has not 
actually committed an act of violence, they are radicalized? 
How would you look to kind of stop them? Would you look at 
financial transactions, material support statute? Because 
obviously we want to get them before they strike. But I just 
want to know, do we have----
    Mr. Comey. All of the above. All of the above. Typically we 
charge them with either attempting to provide material support 
to a designated terrorist organization or conspiring to supply 
material support, or there are a number of other statutes, but 
that is the core of it. Frankly, we will use anything we can to 
stop these people from going over there and becoming further 
radicalized.
    Mr. DeSantis. My final question is there is an indictment, 
now a guilty plea, of conservative filmmaker Dinesh D'Souza, 
has written very critical books about President Obama; of 
course, a movie. And it was for campaign finance that he had 
reimbursed some donors who had given money, about $20,000, New 
York Senate race, to a candidate who lost by 35 points. And I 
think the conduct, he committed it, so I am not suggesting 
that. But the decision to eventually charge him criminally, the 
FBI had put out a statement from, I think, one of the local 
offices in New York that they came across D'Souza's impropriety 
through a routine review of the FEC reports.
    But I think you know that if you just review an FEC report, 
all you would see was the name and the amount of donation. 
There would be no indication that you would have reimbursed 
anybody. And so if it was just a routine review, it doesn't 
seem to me that that would be sufficient to trigger that type 
of an inquiry.
    And so can you explain to me how a routine review of an FEC 
filing would have led to a straw donor reimbursement 
indictment?
    Mr. Comey. I guess I don't want to talk about the 
particular case, but I could imagine circumstance in which if 
you saw a bunch of checks to a candidate all coming from a 
similar business or seemed connected to a particular person, 
that might lead to inquiry being made which would expose that 
kind of straw donation scheme. But I don't know the case well 
enough, and I couldn't comment on it anyway.
    Mr. DeSantis. I mean, I think that has not been my 
experience. I mean, there will be families who will donate, 
Republicans and Democrats, and if that would be enough to 
trigger it, I think you would see more. You don't see this many 
cases being brought criminally. And I know that is not your 
decision, but I would like to maybe explore that with you some 
more some other time in private.
    My time has expired, and the Chair now recognizes the 
gentlelady from Washington for 5 minutes.
    Ms. DelBene. Thank you, Mr. Chair.
    And thank you, Director, for all of your time today and for 
your service.
    I, as well as my colleagues, have been deeply disturbed by 
the recent revelations of egregious misconduct at VA medical 
facilities. And I know that the Department of Justice continues 
to consult with the Veteran Affairs Office of the Inspector 
General on their review. At this point they are looking at 69 
VA facilities.
    I wanted to understand do you think you are going to look 
more broadly, given that there are other facilities engaged 
beyond the Phoenix issues? And is there a greater role you 
expect the FBI to play or other resources you think that are 
important as we continue this investigation?
    Mr. Comey. Well, thank you for the question. It is not 
something that I can answer at this point, and I don't think I 
would answer anyway about a criminal investigation.
    We will follow it wherever the facts take us. The Phoenix 
office is where we have opened it because that was the primary 
locus of the original allegations. We are working it with the 
VA IG, and we will follow it wherever the facts take us.
    Ms. DelBene. Thank you. This is a very, very important 
issue, so thank you for your work there.
    Last month the White House released the findings of its Big 
Data and Privacy Working Group review, and one of the 
recommendations made by the report was that Congress should 
amend the Electronic Communications Privacy Act, what we call 
ECPA, to ensure that the level of protection for online digital 
content is consistent with that provided to physical materials. 
But ECPA was written in a time before email and cloud computing 
have changed the way we live and work, and our current law 
affords more protections for a letter in a filing cabinet than 
email on a server.
    So I was pleased that the Administration has recognized 
that this law has been very outdated, and I wanted to ask 
whether you agree that we need to update ECPA and that policy.
    Mr. Comey. My sense is that the Administration has 
communicated that, as you said.
    There is an outdated distinction. For email, over 180 days, 
I think, under the 1980 statute is treated as something that 
you could in theory obtain without a search warrant. We don't 
treat it that way. We go get a search warrant from a Federal 
judge no matter how old it is. So a change wouldn't have any 
effect on our practice, but I have heard the concern, which 
makes sense to me.
    Ms. DelBene. I think it is very important we actually have 
a bill called the Email Privacy Act, H.R. 1852, and it would 
make meaningful updates to the Electronic Communications 
Privacy Act to address this issue, to require law enforcement 
to obtain a warrant in order to gain access to the contents of 
email or documents, pictures, and other information that have 
been stored in the cloud. And this bill already has 216 
cosponsors, something I think very important, to keep our laws 
up to date in this area.
    I also wanted to echo concerns raised by my colleagues 
about the Bureau's work to deal with human trafficking. These 
are horrendous crimes. In Washington State, we have seen 
operations cross country through the Innocence Lost Initiative 
recover juveniles and young adults being victimized by 
prostitution, and that is commendable work, but we haven't made 
inroads yet in how to make a dent in Internet-facilitated 
trafficking of children on Web sites like Backpage and others. 
The prevalence is very staggering, and human costs here are 
truly unspeakable when this activity is allowed to continue.
    So are there tools that the FBI can use to combat online 
trafficking of children? And what are the challenges that you 
face in prosecuting these cases of trafficking, and what can we 
do to help that?
    Mr. Comey. Well, a huge part of what we do to try and 
protect and rescue kids is through investigations online. So I 
have got people all over the country doing that as we speak.
    One of our challenges is the increased use of encryption 
and anonymizers online, especially the people who would harm 
children. And so sometimes folks of goodwill say, isn't it 
terrible that the government wants to be able to break 
encryption or find identities on the Internet? No, it is not. 
With lawful authority and the involvement of a court, I need to 
be able to do that. But it is a technical challenge for us that 
is increasingly difficult, so that is something that we are 
working on.
    The Backpage issue is a challenging one because there are 
certain First Amendment issues that may be implicated by some 
of these publications online, but I don't want to say more 
about it at this point on that.
    Ms. DelBene. Thank you. And thank you for your time.
    I yield back, Mr. Chair.
    Mr. Chabot. [Presiding.] The gentlelady yields back.
    The Chair would now recognize himself for 5 minutes to ask 
questions.
    As my colleagues have indicated, we all appreciate you 
being here, Mr. Director. And we have something in common: We 
both are graduates of the College of William and Mary.
    Mr. Comey. I know.
    Mr. Chabot. You graduated, I believe, in 1982?
    Mr. Comey. Yes.
    Mr. Chabot. I graduated in 1975. So I was thinking that 
perhaps at the end of this hearing, perhaps we could get a 
quick shot and sent it to our alma mater.
    Mr. Comey. Be great.
    Mr. Chabot. See what heck they do with it. Probably not 
much.
    Mr. Comey. Wonder who those old guys are.
    Mr. Chabot. When I was there, we were the Indians.
    Mr. Comey. Me, too.
    Mr. Chabot. Became politically incorrect, and we became the 
Tribe. And I think we are now the Griffins, Which, whatever the 
heck----
    Mr. Comey. I think we are still the Tribe, but our mascot 
is the griffin.
    Mr. Chabot. Which is apparently a mythological figure that 
is half an eagle and half lion, I believe.
    Mr. Comey. So I am told.
    Mr. Chabot. So there you go.
    In any event, that is beside the point. We, again, welcome 
you here.
    I, first of all, would like to just bring up again--I had 
two hearings going on here at the same time, so I have been 
going back and forth--but relative to the China hacking, and 
the charges recently, and the military hackers particularly 
that were indicted for computer hacking and economic espionage 
and other offenses aimed at U.S. nuclear power industry and 
metals and solar products industries, for example. In 
particular it is my understanding that Alcoa, and U.S. Steel, 
and Westinghouse, and Allegheny Technologies and others were 
targeted by the military hackers.
    I happen to also be the Chairman of the Foreign Affairs 
Subcommittee on Asia and the Pacific and was just in China 
about a month ago. So we have a particular interest in this.
    In light of these attacks and the persistence of the threat 
of cyber espionage, if you could relate briefly what the FBI is 
doing about that.
    And, secondly, we are going to be introducing some 
legislation in the very near future which does a number of 
things which are unrelated to the FBI, but one thing which is 
related to the FBI would call for the Federal Bureau of 
Investigation and the Department of Homeland Security to expand 
the warnings that they are now giving to American companies on 
how they are susceptible to cyber attacks and other types of 
attacks, the USB drives, travel, gifts, promises of employment, 
social media, and the rest.
    And we would look forward to working with you and your 
people on any modifications or anything that you think could be 
helpful, things we should add or leave out. We would welcome 
your cooperation in that effort, and just would like to see if 
you have any comments on that.
    Mr. Comey. Well, thank you. I look forward to working with 
you on that.
    As I try to explain to folks, there are only two kinds of 
big companies in the United States: those who have been hacked 
by the Chinese and those who don't know they have been hacked 
by the Chinese. It is an enormous problem, and they are trying 
to steal everything that is not nailed down, and maybe things 
that are nailed down.
    So we are devoting great resources to it through our 
National Cyber Investigative Task Force to try and track the 
intrusions and respond to them quickly. But therein lies the 
challenge: We have to get better at sharing information with 
the private sector at machine speed, because these bad guys are 
moving at the speed of light, and we in this country have to 
get better at facilitating private entities sharing information 
with us, because they will see things before we see them. And 
that back-and-forth is a huge part of the answer to this 
threat, but it is an enormous feature of the cyber work that 
the FBI does.
    Mr. Chabot. Thank you. Appreciate your response.
    Now, we know that China is probably the worst actor in 
this. Are there a handful of other bad actors that you would 
point out that we also need to be wary of?
    Mr. Comey. Oh, sure. I mean, the Internet is a very 
dangerous neighborhood. There is a stack of bad actors from 
state-sponsored enterprises, terrorist groups, organized 
criminal groups, hacktivists. As I said at the beginning, 
because it is where our lives are, that is where bad people 
come. So it is a very complex challenge. There are other state 
actors that are significant players in this. I am not sure in 
an open hearing I want to point them out at this point, but you 
can guess.
    Mr. Chabot. Okay. Thank you very much.
    And in the 48 seconds that I have left, I would just like 
to mention, and I know this has already been brought up, but 
relative to the IRS targeting certain groups because of their 
political leanings, Cincinnati, which I happen to represent, 
the First District of Ohio, that was the location of the IRS 
facility that was perhaps most directly involved. And there was 
some initial talk about, well, that is just those people out in 
Cincinnati; up here we don't know what is going on. Correct me 
if I am wrong, but I understand that this is still under 
investigation----
    Mr. Comey. Yes.
    Mr. Chabot [continuing]. By the FBI, but we certainly hope 
and expect the FBI to give this full consideration and that we 
get to the bottom of actually what happened here and prevent 
something like this from ever happening again.
    Mr. Comey. Yes, sir.
    Mr. Chabot. Thank you very much. Appreciate it. My time has 
expired.
    The gentleman from New York Mr. Jeffries is recognized for 
5 minutes.
    Mr. Jeffries. Thank you, Mr. Chair.
    And thank you, Director Comey, for your testimony here 
today as well as for the tremendous service that you have 
provided to the American people.
    We have a gun violence problem in this country that really 
should shock the conscience of every single American. We have 
in this country 5 percent of the world's population, but 50 
percent of the world's guns. It is estimated that in America 
there are more than 275 million guns in circulation, some of 
which are in the hands of either criminals or the mentally ill.
    We also know that since the tragedy in Newtown, 
Connecticut, more than 14,000 additional Americans, some of 
which live in the district that I represent, have been killed 
as a result of gun violence since the tragedy in Newtown, 
Connecticut, and that there have been more than 70 school 
shootings since December of 2012.
    Given the gun violence problem that we confront in America, 
is it fair to say that we need to do everything possible to 
thwart this growing issue?
    Mr. Comey. Thank you. As you know, I have devoted nearly my 
entire Justice Department career to dealing with efforts to try 
and reduce gun-related violence, so I think it is an incredibly 
important topic. So I agree, whatever we can do to keep guns 
out of the hands of criminals or the mentally defective is 
worth doing.
    Mr. Jeffries. Now, I respect the opinion that you have 
articulated earlier, which is that you don't feel it is 
appropriate for you in your capacity to comment on legislative 
measures that this Congress can undertake to address what I 
think we all acknowledge is a significant threat to this 
country and to our health and our well-being. But what can you 
provide to this Committee in terms of recommendations as it 
relates to what Congress can do to help the FBI 
programmatically deal with the issue of gun violence in a more 
robust fashion?
    Mr. Comey. As I said earlier, I will have to reflect on 
that with respect to the FBI. You are right, it is not a policy 
question, and the legislative questions are not for the FBI 
Director to opine on.
    One thing I can think of is we as a country have to get 
better at getting the records into our background check that 
would allow gun dealers to prohibit sales to people who have 
significant mental health issues, which is a challenge across 
the country.
    Mr. Jeffries. Now, is it fair to say that currently we are 
not doing everything possible in this country to prevent those 
more than 275 million guns to find themselves in the hands of 
individuals who would commit acts of violence or in the hands 
of mentally ill individuals who might do our children or the 
people of America harm?
    Mr. Comey. I think that is fair.
    Mr. Jeffries. Okay. Now, you are familiar, I assume, with 
our Economic Espionage Act of 1996?
    And it is my understanding that this statute provides a 
criminal cause of action for knowing theft of trade secrets 
either for the economic benefit of someone other than the owner 
or by a foreign entity; is that right?
    Mr. Comey. That is my understanding.
    Mr. Jeffries. And the Economic Espionage Act was the 
vehicle used to recently charge agents of the Chinese 
Government; is that right?
    Mr. Comey. Yes. In actually a bunch of different contexts, 
but in the particular case I am talking about, the cyber case, 
that was part of it.
    Mr. Jeffries. Okay. Now, the FBI's Counterintelligence 
Division is the entity that has got jurisdiction to prosecute 
trade secret theft cases; is that correct?
    Mr. Comey. I think we do trade secret work both in our 
Counterintelligence Division and in our Criminal Division.
    Mr. Jeffries. Okay. And it is my understanding that the 
number of trade secret theft cases has increased, I think, by 
greater than 60 percent between 2009 and 2013. And so I commend 
the FBI in terms of its increased activity.
    But there was also apparently a recent report of the Office 
of the National Counterintelligence Executive that estimated 
that annual losses to the U.S. economy from trade secret theft 
approximate either tens or hundreds of billions per year. Is 
that a statistic you are familiar with?
    Mr. Comey. I don't know the number, but that number is--a 
huge number is appropriate.
    Mr. Jeffries. Now, given the massive nature of the economic 
security problem posed by trade secret theft, obviously it is 
important for us to make sure that your agency has all of the 
resources necessary to combat this issue. But it is also my 
understanding that there is no companion civil statute that 
provides U.S. companies with the opportunity on a civil track 
to deal with trade secret theft.
    Do you think that it would be reasonable for us in Congress 
to consider as an additional weapon in the toolbox to combat 
trade secret theft empowering United States companies to have a 
civil cause of action to help police this issue?
    Mr. Chabot. The gentleman's time has expired, but you can 
respond to the question.
    Mr. Comey. I don't know enough to respond to the 
particular, but in general the fuller the toolbox in dealing 
with a threat of that size, the better.
    Mr. Jeffries. Thank you.
    Mr. Chabot. The gentleman's time has expired.
    The gentleman from Rhode Island Mr. Cicilline is recognized 
to 5 minutes, and I believe this will be our final questioner 
this morning.
    Mr. Cicilline. Thank you, Mr. Chairman.
    Thank you, Director Comey, for being here and for your 
testimony.
    I really want to build on my friend from New York's 
questions about gun violence, because I do think this is one of 
the most serious issues facing our country, and, regrettably, 
we seem to be working in a Congress that is committed to doing 
nothing about it and despite, I think, the efforts of a lot of 
us to enact sensible gun safety legislation.
    But one of the things I know you know a lot about, 
Director, because of your leadership of Richmond's Project 
Exile, is the success of programs. I mean, that really became a 
national model of investing in these efforts to reduce gun 
violence. And that, of course, developed Project Safe 
Neighborhoods, which was established under the Bush 
administration really to build upon your work and has been 
really proven to be a very effective program. Unfortunately, we 
didn't provide funding for it in the bill we just passed. I 
offered an amendment to restore level funding of about $8.5 
million, which just barely failed.
    But I would like your thoughts about whether or not our 
budget should include investments for programs like Project 
Safe Neighborhoods. Do you see that as an effective tool in 
helping to reduce gang and gun violence?
    Mr. Comey. I am not in a position to comment on a 
particular budget matter, but, in general, it is hugely 
important. I find in my experience that criminals can change 
behavior with respect to guns.
    The problem we encountered in Richmond was the criminal 
gave no more thought to the gun than what pants or shoes he was 
going to wear that evening, and our goal was to make that an 
object of focus and stretch the link between a criminal and a 
gun, because most homicides are happenstance homicides. It is 
not a planned assassination, it is a disrespect or a 
disagreement that would be a fist fight becomes a shooting 
because the gun is in the waistband. So I think it is very 
important to send those messages to change behavior.
    Mr. Cicilline. Director, you have a responsibility, 
obviously, as the Director of the FBI; you have jurisdiction 
over a wide range of efforts to combat gun violence. In 
particular, the FBI oversees the National Instant Criminal 
Background Check System. And while you have said you don't 
think it is appropriate to opine about policy, of course, you 
have a responsibility to enact policy or support policy which 
enhances public safety and the national security of the United 
States.
    And I assume you would agree that a background check system 
for every purchase of a firearm that captured or prevented 
criminals from buying guns would enhance public safety and 
enhance national security of the United States.
    Mr. Comey. I know from my whole life experience any time 
you are able to keep a gun out of the hands of a criminal, you 
have done a good thing.
    Mr. Cicilline. And so it would make sense if, in fact, we 
required criminal background checks for every purchase of a 
firearm to achieve that objective.
    Mr. Comey. That is where you cross me into. What I love 
about my job is I am not a policymaker. The Attorney General 
decides the policies of the Department of Justice. So I don't 
want to express an opinion.
    Mr. Cicilline. No, I am asking you as a chief law 
enforcement official. That would enhance public safety, to 
ensure that criminals don't have the ability to buy a gun.
    Mr. Comey. Right. If criminals don't get guns, however you 
have done it, you have enhanced public safety.
    Mr. Cicilline. And similarly, you would also, I expect, 
concede that preventing those who are seriously mentally ill, 
such that having a firearm would pose a danger to themselves or 
others ought to be prevented from buying a firearm.
    Mr. Comey. Yes. That would be a good thing.
    Mr. Cicilline. And the best way to do that is to be sure 
that we have a robust system where accurate information is 
reported into the system to prevent seriously mentally ill 
individuals from purchasing a firearm.
    Mr. Comey. I think that is right.
    Mr. Cicilline. Recognizing, of course, the vast majority of 
people who suffer from mental illness are not violent and never 
have a firearm.
    But talking about that category of individuals I just 
described, what is the FBI doing in conjunction with State 
efforts to ensure that States are, in fact, sharing that 
information, that it is accurately put into the national 
database, and that we are actually preventing people with 
serious mental illness from purchasing firearms?
    Mr. Comey. I think the answer is communicating constantly 
and talking constantly to our State partners to tell them what 
records we can accept, what form they should be in, what would 
be useful to us.
    But the job really lies with the States in getting their 
acts together to figure out what records they can supply and 
then supplying them. But I know there is a vibrant dialogue 
between my folks at CJIS, which runs the background check 
system, and the States to try and facilitate the flow of those 
records.
    Mr. Cicilline. Well, I look forward to continuing to work 
with you on this issue. I think this is a very critical issue 
for our country when you see some of the most recent examples 
of terrible gun violence that has been caused by someone with a 
very serious mental illness who should not have access to a 
firearm. And we have got to work together in a bipartisan way 
to make sure that that happens. And I thank you again for your 
testimony.
    And I yield back.
    Mr. Chabot. The gentleman yields back.
    And we have no more questioners, so that concludes today's 
hearing. We thank the Director for joining us.
    And, without objection, all Members will have 5 legislative 
days to submit additional written questions for the witnesses 
or additional materials for the record.
    And if there is no further business to come before the 
Committee, we are adjourned. Thank you.
    [Whereupon, at 12:49 p.m., the Committee was adjourned.]

                                 [all]

</pre></body></html>
